Paul Weinberger, Director, Congressional Relations
Barry Simon, Director, Office of Medical Services
Kellie Greene, Director, Office of Victim Advocacy
Estrella Alam, Acting Director, Human Resource Management
Tim Lawler, Deputy Director, VS/Counseling and Outreach Unit
Jennifer Parrish Taylor, Special Assistant to the Chief Compliance Officer
            Peace Corps
            Office of Inspector General




   Final Report: Review of the Peace Corps’ Implementation of
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
                           (IG-12-08-E)

                                             September 2012
                                   EXECUTIVE SUMMARY
More than 200,000 Americans have served as Peace Corps Volunteers in 139 countries for over
50 years. Volunteers live and work in a broad range of unique and challenging environments
around the world, and while Peace Corps service is often a fulfilling, life-defining opportunity,
there are health and safety risks inherent in service, including the risk of sexual assault or other
serious crime incidents. The safety and security of its Volunteers has been identified by the
agency as a primary objective and a responsibility of Peace Corps staff, Volunteers, and trainees.

During 2010 and 2011 Returned Peace Corps Volunteer (RPCV) rape and sexual assault victims
brought their concerns regarding the agency’s response to their rape or sexual assault to the
Peace Corps Director, elected officials, the Office of Inspector General (OIG), and the media.
RPCV sexual assault victims, agency officials, and subject matter experts testified before
Congress in May 2011 and again in September 2011. Victims voiced concerns that the agency’s
response was inadequate, uncompassionate, victim-blaming, and ineffective and cited a lack of
staff accountability to or oversight of the response effort. They called on the Peace Corps to
adopt the highest standards for response to and care for victims.

In 2011 OIG initiated a review of the Peace Corps’ implementation of guidelines related to
Volunteer victims of rape and sexual assault. The purpose of the review was to examine agency
guidelines and protocols, make recommendations to improve support to Volunteer victims of
sexual assault, and identify best practices we observed at selected posts. We examined Volunteer
sexual assault incidents that occurred from 2009-2011. We used the following researchable
questions to guide our work:

      1. Is the agency’s guidance for responding to Volunteer victims of sexual assault sufficient
         to meet victim needs?
      2. Is the agency’s sexual assault training for staff sufficient to prepare them to respond to
         victims?
      3. Are victims sufficiently supported?
      4. How does the agency’s response to and care of sexual assault victims compare to other
         organizations and to the standards recommended by subject matter experts?

As mandated under the Kate Puzey Peace Corps Volunteer Protection Act of 2011(Kate Puzey
Act), 1 OIG will issue reports in 2013 evaluating the effectiveness and implementation of
Volunteer sexual assault risk reduction training and the sexual assault policy developed as a
result of the Act, as well as other aspects of agency operations.

The Peace Corps accomplished a number of initiatives during 2011 that addressed concerns
raised by sexual assault victims. The agency’s Commitment to Sexual Assault Victims was
issued, which spelled out a framework for responding to sexual assaults that is predicated on
compassion, safety, open communication, and respect for the privacy of victims. In May 2011, a
victim advocate was hired to work with Volunteers and post and headquarters staff to enhance

1
    Public Law 112-57.

Final Report: Review of the Peace Corps’ Implementation of                                            i
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
support for victims of sexual assault and other serious crimes. The agency developed and
implemented new guidance and training during 2011 for post and headquarters staff through its
Guidelines for Responding to Rape and Sexual Assault (Response Guidelines). While the
Response Guidelines established a uniform notification and response protocol for Volunteer or
trainee (V/T) sexual assault incidents at all Peace Corps posts, we found that the agency needs to
take additional steps to ensure that its response to Volunteer sexual assault incidents are
consistent, that staff are accountable, and there are systems in place to assess and address any
shortcomings.

The agency response to sexual assault should be considered in the context of the overall
Volunteer safety and security program. Prior to issuance of the Response Guidelines in February
2011 each Peace Corps post established post-specific procedures for responding to V/T rape and
sexual assault crimes. This created the potential for inconsistencies or lapses in the agency’s
response effort. As we reported in our 2010 audit report Peace Corps Volunteer Safety and
Security Program, without standardization of the security program and clear lines of authority
for oversight and monitoring compliance, the agency cannot ensure that posts fully and
consistently implement effective safety and security policies. 2 The agency-wide sexual assault
Response Guidelines issued in 2011 and mandatory staff training should help ensure a
standardized step-by step response and notification protocol and other necessary response
elements are integral to each post’s response effort. Standardized response and notification
protocols will support more consistent response and care to victims. Prior to the dissemination of
the Response Guidelines and mandatory training sessions, posts were not required to conduct
annual sexual assault response training for staff with response and care duties. The content of
each post’s staff training program was defined by post-specific crime response protocols rather
than a standard sexual assault protocol employed at every Peace Corps post. A uniform agency-
wide sexual assault response training module will support a more consistent level of staff
preparedness for the response and care effort.

Staff members who participated in the Response Guidelines training sessions reported greater
confidence in their ability to respond to Volunteer victims. Staff members we interviewed told us
that the training sessions provided a forum to discuss American and host country perceptions,
culture, laws and norms regarding sexual behavior or assault, and to consider these issues in the
context of the agency’s Commitment to Sexual Assault Victims. Some posts have used country-
specific information generated from those discussions to strengthen sexual assault awareness and
mitigation strategies in their Volunteer training programs. Incorporating this information into
Volunteer, counterpart, partner agency, and post staff training programs is a best practice that
could be extended to other posts as they conduct annual Response Guidelines or other related
staff training.

We found that the rape and major sexual assault victims we interviewed whose incidents
occurred from 2009–2011 were generally satisfied with the agency’s response. However,
Volunteers who reported “other sexual assault” (OSA) incidents were not consistently receiving



2
 OIG final audit report: Peace Corps Volunteer Safety and Security Program, IG-10-08-A,
http://files.peacecorps.gov/multimedia/pdf/policies/PC_Safety_and_Security_Final_Audit_Report_IG1008A.pdf.

Final Report: Review of the Peace Corps’ Implementation of                                                   ii
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
medical consultations or the follow-up care or support that some of them needed. 3 For some
cases we reviewed, OSA victims had not received support because post medical officers were
not informed of the incident by the staff member taking the initial incident report. These lapses
can be attributed in part to the lack of standardized protocols and procedures for this type of
incident. The Response Guidelines lack a protocol for response, care and follow-up support to
Volunteers who report an OSA incident. As a consequence, we found that for some OSA
victims, staff members had not met the support obligations made in the agency’s Commitment to
Sexual Assault Victims. The lack of an agency-wide protocol for response and care to OSA
incidents creates the potential for inconsistencies or lapses in the agency’s response effort and we
recommended that a response protocol for OSA victims be developed and added to the Response
Guidelines.

We found that the agency did not use a centralized case management system to verify sexual
assault response requirements had been fulfilled and to assess performance and provide feedback
to responders to make process improvements. The lack of a centralized system makes it difficult
to confirm the quality or consistency of victim care provided or to identify and correct lapses in
services or response to victims. We identified several issues related to the Response Guidelines
training that require attention. We determined that the participation of country directors and post
medical officers in the 2011 Response Guidelines training had been inconsistent; some of them
had not attended the training sessions as required. Some CDs were not fully familiar with the
information contained in the post’s “Survey of the Local Legal Environment” (LES) which
contains specific information relative to the crime of rape or sexual assault in the host country
and detailed information on the legal process. Post staff members who may be assigned as acting
country director (CD) were not consistently trained to conduct incident response or oversee
sexual assault incident management. Additionally, some headquarters staff members with
responsibilities for victim response and care had not received training on the Response
Guidelines.

Our report contains 12 recommendations, which, if implemented, should strengthen the agency’s
response and care to Volunteer victims of rape and sexual assault and correct the deficiencies
detailed in the accompanying report.




3
 See Table 2, page 2 for the agency’s definitions of rape/attempted rape, major sexual assault, and other sexual
assault.

Final Report: Review of the Peace Corps’ Implementation of                                                         iii
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
                                                 TABLE OF CONTENTS

EXECUTIVE SUMMARY ........................................................................................................... i

BACKGROUND ........................................................................................................................... 1

RESULTS OF REVIEW ............................................................................................................ 10

A.    PEACE CORPS’ GUIDANCE FOR RESPONDING TO VOLUNTEER VICTIMS OF SEXUAL ASSAULT ..................... 10

B.    SEXUAL ASSAULT STAFF TRAINING .................................................................................................................. 25

C.    VOLUNTEER SEXUAL ASSAULT VICTIM SUPPORT ............................................................................................ 29


OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................... 37

INTERVIEWS CONDUCTED .................................................................................................. 40

LIST OF RECOMMENDATIONS ........................................................................................... 42

APPENDIX A: LIST OF ACRONYMS ................................................................................... 44

APPENDIX B: KATE PUZEY PEACE CORPS VOLUNTEER PROTECTION ACT ..... 45

APPENDIX C: AGENCY RESPONSE .................................................................................... 47

APPENDIX D: OIG COMMENTS ........................................................................................... 54

APPENDIX E: PROGRAM EVALUATION COMPLETION AND OIG CONTACT ..... 56




Final Report: Review of the Peace Corps’ Implementation of
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
                                           BACKGROUND
Survivor Concerns Regarding the Peace Corps' Response to Rape and Sexual Assault

During 2010 and 2011, RPCV rape and sexual assault victims approached the Peace Corps
Director, elected officials, OIG, and the media to express concerns regarding the agency’s
response to their rape or sexual assault. In May 2011 and September 2011, RPCV rape and
sexual assault victims, agency officials, and subject matter experts were invited to testify before
Congress. Testimony at those hearings, along with victim accounts submitted to agency officials
and OIG, highlighted concerns that the agency’s response to sexual assault incidents both in the
recent past and spanning many prior years had been inconsistent, uncompassionate, victim-
blaming, or ineffective. Volunteer victims expressed concerns regarding staff accountability and
a lack of oversight of the response effort. Sexual assault victims testified they did not receive the
support they expected to receive from the Peace Corps and that improvements were not made
after they complained about the quality of response and care.

The Peace Corps' Commitment to Volunteer Safety and Security

Peace Corps Volunteers live and work in a broad range of unique and challenging environments
around the world. While Volunteer service has long been considered a fulfilling, life-defining
opportunity, the experiences of more than 200,000 Americans spanning 50 years in 139 countries
reflects that there are inherent health and safety risks. In its present policy statements, the safety
and security of Volunteers has been highlighted by the agency as a “paramount objective of the
Peace Corps” and a primary responsibility for its managers, staff, Volunteers, and trainees.

While the agency advises Peace Corps applicants that there are inherent risks in Peace Corps
service, it also strives to select work sites and place Volunteers in locations that do not pose
unreasonable or inordinately high risk to their safety or well-being. This is challenging given the
current operating context including increasing political unrest, rising crime rates, and threats of
terrorism. Female Volunteers particularly have indicated over the past decade that feeling unsafe
during their Peace Corps service was a concern for them. 4

The Peace Corps emphasizes community acceptance as the key to maintaining Volunteer safety
and security. It has found that safety is best ensured when Volunteers are well-integrated into
host communities as extended family members and seen as contributors to their communities'
development. Volunteers play an important role in ensuring their own safety: they are expected
to comply with post safety and security policies and exercise good judgment.

Prevalence and Effects of Sexual Violence

According to subject matter experts, sexual violence includes rape, incest, child sexual assault,
ritual abuse, non-stranger rape, statutory rape, marital or partner rape, sexual exploitation, sexual

4
 Bridgeland, John M., Wofford, Harris, Quigley, Kevin F.F., & Milano, Jessica A., A Call To Peace: Perspectives
of Volunteers on the Peace Corps at 50, (D.C Civic Enterprises and National Peace Corps Association, 2011), p. 25,
http://www.civicenterprises.net/MediaLibrary/Docs/a_call_to_peace.pdf.

Final Report: Review of the Peace Corps’ Implementation of                                                       1
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
 contact, sexual harassment, exposure, and voyeurism, and is motivated by the desire to control,
 humiliate or harm. Unfortunately, sexual violence is a risk for Volunteers in every country where
 the Peace Corps serves.

 While anyone can experience sexual violence, most victims are female. The perpetrator is
 typically male, often known to the victim, and possibly a friend, coworker, or neighbor.
 According to the World Bank, one out of three women worldwide have experienced rape or
 sexual assault. 5 A 2010 Centers for Disease Control and Prevention survey indicated that nearly
 one in five women and one in 71 men in the United States have been raped. 6 Sexual violence
 takes an immeasurable toll on its victims. Victims of sexual violence may experience sexually
 transmitted disease, pregnancy, or chronic disease. They may also face short- and long-term
 psychological, social and behavioral impacts including depression, post-traumatic stress disorder,
 loss of productivity, substance abuse, strained relationships, and fear of crime.

 Sexual assault victims often do not report their assaults due to shame, embarrassment, fear they
 will not be believed, or threats of further harm by their attackers. Some victims may not
 immediately identify the experience as a sexual assault, particularly if the perpetrator is known to
 them or if physical force is not used; others may be reluctant to report due to mistrust or fear of
 losing anonymity or privacy. According to the Department of Justice, in 2010 only 50 percent of
 persons aged 12 or older who experienced a rape or sexual assault in the United States reported
 the incident to local police. The agency’s anonymous 2009 Annual Volunteer Survey indicated
 that 54.9 percent of Volunteer sexual assault victims and 66.7 percent of Volunteer rape victims
 did not report their assault to the Peace Corps.

 The Peace Corps categorizes sexual assaults into one of three incident definitions: rape/attempted
 rape, major sexual assault, or other sexual assault (OSA), and uses the following incident
 definitions:

Table 2: Peace Corps’ Incident Classifications of Sexual Assault
              Rape/    Penetration of the vagina or anus with a penis, tongue, finger or object without the
     Attempted Rape    consent and/or against the will of the Volunteer. This includes when a victim is unable
                       to consent because of ingestion of drugs and/or alcohol. Rape also includes forced oral
                       sex, where: (a) the victim’s mouth contacts the offender’s genitals or anus OR (2) the
                       offender’s mouth contacts the victim’s genitals or anus, OR (3) the victim is forced to
                       perform oral sex on another person.
       Major Sexual    Intentional or forced contact with the breasts, genitals, mouth, buttocks, or anus, OR
            Assault    disrobing of the Volunteer or offender without contact of the Volunteer’s
                       aforementioned body parts, for sexual gratification AND any of the following: (1) the
                       use of a weapon by the offender, OR (2) physical injury to the victim, OR when the
                       victim has to use substantial force to disengage the offender.
       Other Sexual    Unwanted or forced kissing, fondling, and/or groping of the breasts, genitals, mouth,
            Assault    buttocks, or anus for sexual gratification.
Source: Peace Corps.

 5
   “Worldwide Sexual Assault Statistics,” George Mason University Sexual Assault Services;
 http:/www.nsvrc.org/publications/fact-sheets/worldwide-sexual-assault-statistics.
 6
   Black, M.C., Basile, K.C., Breiding, M.J., Smith, S.G., Walters, M.L., Merrick, M.T., Chen, J., & Stevens, M.R.,
 The National Intimate Partner and Sexual Violence Survey (NISVS): 2010 Summary Report, Atlanta: National
 Center for Injury Prevention and Control, Centers for Disease Control and Prevention, 2010), p. 1,
 http://www.cdc.gov/violenceprevention/nisvs/.

 Final Report: Review of the Peace Corps’ Implementation of                                                           2
 Guidelines Related to Volunteer Victims of Rape and Sexual Assault
According to data compiled and reported by the agency’s Office of Safety and Security (SS)
from its Consolidated Incident Reporting System (CIRS), from 2001 to 2010 there were 1,081
rapes/attempted rapes, major sexual assaults, and other sexual assaults reported by V/Ts. Other
sexual assault incidents comprised 714 of the reported incidents.

Table 3: Volunteer Reported Sexual Assaults 2001-2010


        Volunteer Reported Sexual Assaults
               2001-2010 (n=1,081)

                                    n=212
                                                                Rape/Attempted Rape

                                        n=155                   Major Sexual Assault
                    n=714
                                                                Other Sexual Assault




Source: Peace Corps Consolidated Incident Reporting System.

According to the agency’s analysis of reported Volunteer crime incidents, the data for this period
reflects the following trends in incidence rates for sexual assault crimes:

    •    The incidence rate for reported V/T rape/attempted rape has remained relatively
         unchanged over the 10-year period at .50 incidents per 100 V/T years. 7

    •    The incidence rate for reported major sexual assaults has varied from a high of 0.56
         incidents per 100 V/T years in 2001 to a low of 0.24 incidents per 100 V/T years in 2004.

    •    The incidence rate for reported other sexual assaults for the 10-year period has fluctuated
         around an average of 1.69 incidents per 100 V/T years.

SS provided summary data related to the status of rape/major sexual assault cases compiled from
CIRS for the period from 2009 through 2011. During this period, 45 percent of Volunteer
victims of rape or major sexual assault (58 of 128) who reported the incident to the agency chose

7
  The Volunteer population fluctuates throughout the year as trainees arrive and Volunteers complete their service.
To more accurately compare Volunteer/trainee numbers across years, the agency uses Volunteer/trainee years (V/T
years). V/T years take into account both the number of Volunteers and the length of time each Volunteer served.
Since Volunteers may serve less than a full calendar year, counting V/T years is more accurate than counting
individual Volunteers. There were 7,736 V/T years in calendar year 2010.

Final Report: Review of the Peace Corps’ Implementation of                                                            3
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
to report their assault to local or national police or civil/local authorities. For cases where
Volunteers agreed to report their assaults to local authorities, SS reports that arrests were made in
71 percent of cases (41 of 58), and suspects have been found guilty in 56 percent of cases that
have gone to trial.

The Importance of a Victim-Centered Response

Sexual assault response experts emphasize that a “victim-centered response recognizes that the
one person to whom all responders are responsible to is the victim.” A victim-centered response
acknowledges that “it is important for victims to have an experience of justice” and that “justice
exists when victims are listened to and taken seriously,” 8 regardless of the legal outcome of their
incident.

Experts who work regularly with sexual assault response and care have found that “victims of
sexual assault who experience a supportive and compassionate response, regardless of the
criminal justice system outcome, have lower rates of post-traumatic stress than victims who
experience secondary trauma in the form of disbelief and blame.” Treating psychological
symptoms as soon as possible may also reduce the duration and severity of distress experienced
by sexual assault victims. 9

Growth and Change in Agency Sexual Assault Response Strategy and Resources

Before 1998, Volunteer rape and sexual assault response and care was managed at posts by the
Peace Corps medical officers (PCMOs) and at headquarters by the Office of Medical Services
(OMS); the direct involvement of the Country Director in the immediate response to the
Volunteer varied according to post-specific policies and procedures. At headquarters, a
Volunteer Safety Council, coordinated by the Office of Special Services, addressed ongoing
issues and concerns surrounding Volunteer safety. In 1995 a Volunteer Safety Coordinator was
hired to plan, coordinate and facilitate the activities of the council. In 1998, as a result of the
work of the coordinator and council, the agency issued its Rape Response Handbook to guide
Peace Corps posts’ sexual assault response and care efforts, and CDs were tasked with overall
responsibility for managing the response to a Volunteer sexual assault incident. The handbook
included a notification protocol and a flow chart listing the headquarters offices that PCMOs and
CDs were to contact for support to the victim or response to the crime. In 2000 the agency hired
regionally-based Peace Corps safety and security officers (PCSSO) to provide technical
assistance to posts and support the response to all crimes committed against Volunteers.

In 2003 the Office of Safety and Security was established under the direction of the associate
director for safety and security who reports to the agency’s deputy director. SS was charged with



8
  Sexual Assault Response Team SART Handbook, Oklahoma Office of Attorney General Victim Services Unit,
Version III, July 2009, supported by Grant No. 2008-TA-AK-K029 awarded by the Office on Violence Against
Women, U.S. Department of Justice.
9
  Yuan, Nicole P., Koss, Mary P., Stone, Mirto, Current Trends in Psychological Assessment and Treatment
Approaches for Survivors of Sexual Assault Trauma, National Resource Center on Domestic Violence, 2006, p. 1,
http://www.vawnet.org/assoc_files_vawnet/ar_svtreatment.pdf.

Final Report: Review of the Peace Corps’ Implementation of                                                      4
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
the responsibility for establishing the agency’s safety and security policies and supporting posts
in implementing policies through guidance, training, supervision and oversight.

During 2002, the Peace Corps established a new post staff position, safety and security
coordinators (SSCs), and subsequently assigned them to each post to assist CDs with monitoring
and assessing the in-country security environment and conducting ongoing safety assessments of
Volunteer sites. The SSCs’ duties also currently include reporting and tracking Volunteer and
staff crime incidents at post, assisting Volunteer victims with filing a police report,
accompanying the Volunteer to legal proceedings, and updating the Volunteer on the status of
his or her case. In addition, in 2003 the Peace Corps also hired regional security advisors for
each of the three geographic regions (Europe, Mediterranean, and Asia; Inter-America and
Pacific; and Africa) to coordinate activities between headquarters and their region's SSCs.

In March 2008 a Sexual Assault Working Group (SAWG) 10 was established to bring agency
staff together to examine the issue of Volunteer sexual assault and make recommendations in a
broad range of programmatic, training, and safety and security areas, including: how the agency
informs applicants about sexual assault issues before entering service, in its initial and ongoing
training programs after entering service, and in its capability and readiness to respond in the
aftermath of a sexual assault.

In April 2008 the Peace Corps launched the Crime Incident Reporting System, now known as the
Consolidated Incident Reporting System (CIRS). The CIRS serves as a centralized database of
all post-reported crimes and safety incidents involving Peace Corps Volunteers and trainees.

In April 2010 OIG issued an audit report on the agency’s Volunteer safety and security program.
The report’s findings and recommendations focused on aspects of its safety and security program
where improvements were needed to ensure the agency’s program was complete, implemented
consistently, and positioned to meet the unique safety and security challenges it faced. 11 The
agency concurred with 27 and partially concurred with one of the report’s 28 recommendations.

Office of Inspector General Responsibilities Related to Volunteer Crime

OIG responsibilities relative to Volunteer sexual assault and rape changed as the agency
developed and deployed its own systems and staff resources to respond to Volunteer crime
incidents. From 2003 to 2008, OIG was responsible for coordinating the interagency
investigation of violent crimes committed against Volunteers, including sexual assaults and rapes
committed against Volunteers. These responsibilities encompassed coordination with the
Department of Justice and other U.S. law enforcement and criminal investigative agencies, and
coordination of investigative and prosecutorial support to foreign law enforcement agencies.

During this period, OIG served as the principal office guiding CDs and other agency officials on
all investigative and prosecutorial matters related to Volunteer sexual assault and rape. OIG

10
   In early 2012 the SAWG was renamed The IDEAL Council. Comprising staff members from 16 departments of
the agency and functioning as an interdisciplinary team, the IDEAL Council focuses on sexual education, prevention
and help for both Volunteers and staff.
11
   OIG, Peace Corps Volunteer Safety and Security Program.

Final Report: Review of the Peace Corps’ Implementation of                                                      5
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
investigators provided investigative support to the Volunteer victim, coordinated on retention of
legal counsel for the Volunteer, and compiled and maintained the agency’s investigative file for
each crime. OIG supported investigations in the host country with the U.S. Embassy regional
security officer (RSO), who has responsibility under the authority of the Chief of Mission for
contact to and liaison with the local police.

In September 2008, the responsibility to coordinate the investigative response to crimes
committed against Volunteers, including rape and sexual assault crimes, was transferred from
OIG to the Peace Corps’ SS office, with the exception of reported cases in which a Volunteer has
been sexually assaulted by another Volunteer or by a Peace Corps staff member. OIG maintains
sole responsibility for investigating such incidents. 12 According to the agency’s CIRS data, from
2009 through 2011 there were 16 reports of rape, major sexual assault or other sexual assault
where the alleged perpetrator was another Peace Corps Volunteer, and one report of another
sexual assault incident in which the alleged perpetrator was a staff member.

Peace Corps Staff Roles and Responsibilities

Peace Corps Manual section 270, “Volunteer/Trainee Safety and Security,” specifies the offices
with primary responsibility for the agency’s safety and security program. The Peace Corps
manages its Volunteer safety and security programs through two offices: the SS office, which
directs, oversees, and supports Volunteer safety and security programs; and the Office of Global
Operations (OGO) which manages and supervises Volunteers and trainees through three regional
directors (RDs) and the CDs assigned to Peace Corps posts. SS establishes the general safety and
security programs for the agency, and the Office of Global Operations has responsibility for
ensuring implementation of these programs at posts.

At the post level, the CD has overall responsibility for the day-to-day management and execution
of Volunteer safety and security programs. This effort is coordinated with support from staff at
the post, regional, and headquarters levels, including medical, safety and security, legal, and
administrative staff. When crimes are committed against Volunteers overseas, investigative and
prosecutorial jurisdiction frequently lies with that country's police and judicial system.
Prosecution in the U.S. is available only for crimes over which the United States has
extraterritorial jurisdiction. 13 Even for those crimes, local prosecution may be preferred because
of evidentiary and legal considerations. 14 Therefore, in order to develop a comprehensive
Volunteer safety and security program and provide support to the Volunteer victim, CDs must be
familiar with local laws and with local customs and culture.

At posts, the CD and the Peace Corps Medical Officer (PCMO) are responsible for conducting
staff sexual assault response training, responding and caring for the victim, notifying required

12
   See Peace Corps Manual section 861 & Inspector General Act of 1978. OIG conducts investigations of criminal,
civil, and administrative misconduct related to the Peace Corps’ programs and operations. OIG serves as the law
enforcement arm of the Peace Corps and works closely with other federal agencies.
13
   Such crimes include but are not limited to those occurring within the special maritime and territorial jurisdiction
of the United States pursuant to 18 U.S.C. §7, or where a federal criminal statute expressly provides for U.S.
extraterritorial jurisdiction.
14
   See generally, Extraterritorial Application of American Criminal Law, Congressional Research Service,
September 10, 2007.

Final Report: Review of the Peace Corps’ Implementation of                                                               6
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
offices, and pursuing legal options in the host country. They are supported by the Office of
Volunteer Support medical and counseling staff, safety and security staff, and administrative
staff in the field and at headquarters. Depending on the circumstances of the rape or sexual
assault crime, OIG, the Office of General Counsel (OGC), and the U.S. embassy’s RSO all may
be notified.

The agency’s Office of Volunteer Support (VS) describes its headquarters offices, services and
responsibilities as follows:

    •   The Office of Medical Services clinical programs unit provides clinical oversight and
        management of the Volunteer health system, along with guidance and support to the
        PCMOs and agency-contracted health personnel.

    •   OMS and the counseling and outreach unit (COU) provide medical and mental health
        services and support to worldwide Peace Corps posts. The COU supports the emotional
        well-being of both Volunteers and staff, assists posts in the management of Volunteer
        behavioral and adjustment challenges, provides consultation throughout the agency, and
        serves as a liaison for families of Volunteers during crises or emergencies

2011 Agency Organizational and Policy Changes

In 2011 the agency updated its policy and guidance for responding to Volunteer sexual assault.
In January, the Peace Corps published its Commitment to Sexual Assault Victims (hereafter
Commitment) defining and describing the agency’s overarching commitment to Volunteer
victims of sexual assault (Table 4).

         Table 4: The Peace Corps’ Commitment to Sexual Assault Victims
           Peace Corps is committed to providing a compassionate and supportive response to all
           Volunteers who have been sexually assaulted. To that end, the Peace Corps makes the
           following commitment to our Volunteers who are victims of sexual assault.
           1. COMPASSION
             We will treat you with dignity and respect. No one deserves to be a victim of a sexual
             assault.
           2. SAFETY
             We will take appropriate steps to provide for your ongoing safety.
           3. SUPPORT
             We will provide you with the support you need to aid in your recovery.
           4. LEGAL
             We will help you understand the relevant legal processes and your legal options.
           5. OPEN COMMUNICATION
             We will keep you informed of the progress of your case, should you choose to pursue
             prosecution.
           6. CONTINUATION OF SERVICE
             We will work closely with you to make decisions regarding your continued service.
           7. PRIVACY
             We will respect your privacy and will not, without your consent, disclose your identity or
             share the details of the incident with anyone who does not have a legitimate need to know.

           Peace Corps staff worldwide will demonstrate this commitment to you through our words and
           actions.
         Source: Peace Corps.


Final Report: Review of the Peace Corps’ Implementation of                                                7
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
In February 2011, the agency issued its Response Guidelines: Guidance for Staff to Provide
Compassionate and Timely Support (hereafter Response Guidelines). The agency advised posts
in its transmittal memo that the Response Guidelines were “designed to serve as the game plan
by which post will provide timely and effective response, especially in the first crucial hours
after the incident is reported.” The Response Guidelines were developed with input from SS,
OMS, COU, OGO, regional directors, regional security advisors, and OGC. This step-by-step
guidance spells out the process for taking a call from a sexual assault victim, including a flow
chart defining staff notification responsibilities, as well as actions to be taken and responsibilities
of the country director and other post staff for initial and extended support to the victim (Figure
1).

           Figure 1: Response Guidelines Rape and Sexual Assault Notification Flow Chart




           Source: Peace Corps.


Final Report: Review of the Peace Corps’ Implementation of                                            8
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
CDs were instructed in a memorandum that accompanied the Response Guidelines training
module to ensure that key staff members, especially those who serve as duty officers, were fully
trained on the Response Guidelines by March 29, 2011. The Response Guidelines instruct
country directors to ensure that the post has completed a “Survey of the Local Legal
Environment” (LES) and update it at least annually so they are familiar with host country laws
for reporting a crime to local authorities and for prosecuting a crime in the host country.

The agency demonstrated continued steady progress in policy and program implementation
related to Volunteer rape and sexual assault throughout 2011:

    •   In April 2011, Peace Corps staff members from OMS attended sexual assault nurse
        examiner training designed to train individuals to provide care to victims and conduct
        medical forensic examinations, and in May 2011 staff from OMS, SS, COU, and the
        victim advocate attended sexual assault response team trainings, where they collected
        sexual assault prevention and response best practices and training materials. OMS
        incorporated sexual assault nurse examiner trainings into PCMO trainings, and the
        agency adapted its first response protocol from the sexual assault response team model
        used by responders nationwide.

    •   In May 2011, a victim advocate was hired to work with Volunteers and post and
        headquarters staff to enhance support for victims of sexual assault and other serious
        crime incidents.

    •   In June 2011, the Peace Corps formed a panel of experts in the field of sexual assault
        prevention and response representing federal agencies, nonprofit organizations, medical
        professions and universities to provide expertise and assistance. Experts from the
        Department of Defense Sexual Assault Prevention and Response Office and other subject
        matter experts provided feedback on trainings for Volunteers and staff and input
        regarding the agency’s sexual assault policy.

    •   In August 2011, OMS revised Medical Technical Guideline (TG) 540: “Clinical
        Management of Sexual Violence.” This protocol is used by medical officers to provide
        immediate and follow-up medical care to Volunteer victims. The update includes detailed
        medical and forensic examination instructions and additional notification procedures.

    •   In November 2011, the Peace Corps issued Interim Policy Statement 1-11 “Immunity
        from Peace Corps Disciplinary Action for Victims of Sexual Assault.” The interim policy
        provides the victim, as well as any witness who provides information or assistance in
        relation to the sexual assault, with immunity for Peace Corps policy violations related to
        the incident. This policy is intended to discourage focusing on the victim's behavior or
        otherwise blaming the victim and to encourage the reporting of sexual assault by the
        victim or other witnesses.

    •   Over the course of 2011 the Peace Corps entered into written agreements with two
        organizations to carry out specific collaborative sexual assault and prevention and

Final Report: Review of the Peace Corps’ Implementation of                                         9
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
        response duties. The Rape, Abuse and Incest National Network agreed to carry out
        collaborative activities, including sharing information and expertise in the areas of sexual
        assault prevention and response. The Department of Justice National Institute of Justice
        agreed to assist with planning for evaluation of the agency’s sexual assault risk reduction
        and response program, and support in drafting a confidential survey of Volunteers
        regarding the safety of the Volunteers and the effectiveness of programs and staff.

On November 21, 2011, the President signed into law the Kate Puzey Act. This act establishes
requirements for the agency to mitigate and respond to Volunteer rape and sexual assault through
sexual assault risk reduction and response training, the development of a sexual assault policy,
the establishment of an office of victim advocacy and a sexual assault advisory council, and
other efforts. (See Appendix A for discussion of the agency’s ongoing work to fulfill the Kate
Puzey Act requirements.)

The Peace Corps continued to focus its efforts on mitigating sexual assault during 2012 by
modifying and standardizing Volunteer safety and security trainings, along with other efforts. As
mandated under the Kate Puzey Act, OIG will issue reports in 2013 evaluating the agency’s
implementation of Volunteer sexual assault risk reduction training and the sexual assault policy
developed as a result of the Act, as well as other aspects of agency operations.


                                     RESULTS OF REVIEW
    A. P EACE C ORPS’ G UIDANCE FOR R ESPONDING TO VOLUNTEER VICTIMS OF SEXUAL
       ASSAULT

The Peace Corps developed and implemented new guidance and training during 2011 for post
and headquarters staff through its Response Guidelines. The issuance of the Response Guidelines
established a uniform response and notification protocol for Volunteer or trainee sexual assault
incidents at all Peace Corps posts. The agency also issued its Commitment to Sexual Assault
Victims, which spells out a response strategy predicated on compassion, safety, open
communication, and respect for the privacy of sexual assault victims, which Volunteer victims
had identified and underscored as a pressing need.

The agency’s response to sexual assault should be considered in the context of the overall
Volunteer safety and security program. Prior to issuance of the Response Guidelines, according
to agency policy established in Peace Corps Manual section (MS) 270 “Volunteer Safety and
Security,” each post was expected to establish its own post-specific procedures for responding to
V/T security incidents, including rape and sexual assault crimes committed against V/Ts. As we
reported in our 2010 audit of the Peace Corps safety and security program, without
standardization of the security program and clear lines of authority for oversight and monitoring
compliance, the agency cannot ensure that posts fully and consistently implement effective
safety and security policies. The agency-wide sexual assault Response Guidelines issued in 2011
should help ensure that a standardized step-by-step response and notification protocol and other
necessary response elements are integral to each post’s response effort.



Final Report: Review of the Peace Corps’ Implementation of                                        10
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
In order to determine if Volunteer sexual assault victims were effectively supported, we
evaluated post staff members' preparation and response to Volunteers reporting a sexual assault
at selected posts from 2009 to 2011. Our interviews and document review focused on first
response assistance, medical care, and safety, legal and administrative support. We interviewed
Volunteer victims of sexual assault whose incidents occurred from 2009 through 2011 and staff
members with first response, care, and support roles for sexual assault incidents. We conducted
reviews of Volunteer medical and related files to assess support services provided to Volunteer
victims.

The Volunteer victims of rape and major sexual assault we interviewed during our fieldwork at
posts between June and September 2011 were generally satisfied with the quality of the agency’s
response and support received in the aftermath of their assaults. However, as discussed below, a
standard agency protocol for response and care to Volunteers who report an OSA incident is not
included in the Response Guidelines. As a consequence, we found that some staff members had
not met all their support obligations to some OSA victims. The lack of an agency-wide protocol
for response and care to OSA incidents creates the potential for inconsistencies or lapses in the
response effort. The agency needs to take additional steps to ensure that its responses to all
Volunteer sexual assault incidents are consistent, that staff are accountable, and there are systems
in place to assess and address any shortcomings.

We describe a number of issues in our findings below where the rape and sexual response
protocols or guidance are not sufficiently clear, resulting in some confusion among staff tasked
with response to victims. Some of the confusion is caused by the lack of detailed descriptions of
roles and responsibilities for staff members and offices. For instance, there is insufficient
guidance regarding the agency’s response to a Volunteer sexual assault when the alleged
perpetrator is a Volunteer or Peace Corps staff member. Additionally, guidance outlined in the
Response Guidelines and in TG 540 “Clinical Management of Sexual Violence” contains
conflicting wording or instructions regarding notification of headquarters offices following a
sexual assault, which has confused some staff members and could lead to lapses in response or
care to the Volunteer victim.

Sexual assault resources and guidance underwent significant revision during 2011 and more
support was available to staff responders and Volunteer victims.

According to the National Victim Assistance Standards Consortium’s Standards for Victim
Assistance Programs and Providers 15 (hereafter Standards), clear and comprehensive victim
assistance program standards are essential to ensure quality, responsiveness, and accountability
of services. Victim assistance program standards describe what should be accomplished by the
program, methods of service delivery, and accessibility of victim services.


15
  The Standards for Victim Assistance Programs and Providers was prepared under a grant awarded by the Office
for Victims of Crime, Office of Justice Programs, U.S. Department of Justice. The National Victim Assistance
Standards Consortium was established to address standards and credentialing for victim assistance providers. The
Standards include: Victim Assistance Program Standards, Competency Standards for Victim Assistance Providers,
and Ethical Standards for Victim Assistance Providers. (Dehart, D.D, National Victim Assistance Standards
Consortium: Standards for Victim Assistance Programs and Providers, South Carolina: Center for Child and Family
Studies, University of South Carolina, 2003).

Final Report: Review of the Peace Corps’ Implementation of                                                   11
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
The Peace Corps made significant additions and changes to its sexual assault policy and response
guidelines during 2011. In January the agency issued the Peace Corps’ Commitment to Sexual
Assault Victims articulating seven principles Peace Corps staff are expected to employ when
responding to a Volunteer victim of sexual assault. The Commitment is stressed during staff
sexual assault training sessions, available on the Peace Corps’ website, and is published in the
Volunteer Handbook. Issuance of the Response Guidelines has provided the basis for a more
uniform response and notification protocol at all Peace Corps posts for Volunteer sexual assault.
Prior to the February 2011 dissemination of the Response Guidelines and the mandatory training
session, posts were not required to provide sexual assault response trainings to first responder
staff annually. Additionally, the content of each post’s staff training programs was defined by
post-specific crime response protocols rather than a standard sexual assault protocol employed
by every Peace Corps post. A uniform agency-wide training module will support a more
consistent level of staff preparedness for the response and care effort.

Staff Training Supported Improvements in Immediate Response and On-going Support to
Victims

OIG conducted interviews with field staff members at 15 posts and confirmed that they were
familiar with the Commitment, and that the Response Guidelines training session was conducted
as required following its dissemination. The Response Guidelines training included an overview
of the Commitment and scenarios and role-plays intended to familiarize staff with a process to
provide a victim-centered response. Staff members with first response roles and those with other
responsibilities in the aftermath of an incident expressed confidence that they understood how
each staff member and the post as a whole is expected to respond to Volunteer sexual assault
crimes. There was broad agreement among staff members we interviewed that they were better
prepared to respond according to the agency’s Commitment and Response Guidelines goals to
demonstrate a compassionate attitude and focus their attention on the victim’s immediate safety
and health care needs.

Staff with first response duties said the training session role play exercises allowed them to
practice interacting with a victim using compassionate, non-blaming language in a simulated
situation and that training increased their awareness of the medical, legal and support care to be
provided by the post. PCMOs reported they are pleased that post staff is trained to ensure, first
and foremost, that the victim is safe and to offer appropriate emotional support before referring
the Volunteer to their care. Comments from staff about the training included below are
representative of their overall comments:

        “ It was interactive, role plays, we were in the situation of the Volunteer...previous trainings were lectures
        and hard to remember.”

        “…terrific, helpful, useful training. Very thorough…the role play was really good training…the step-by-
        step guideline was really clear and helpful.”

        “Now I have better information and am able to explain the options the Volunteer has…for the most recent
        incident, the Volunteer has chosen to prosecute.”




Final Report: Review of the Peace Corps’ Implementation of                                                           12
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
Some Posts Included All Post Staff or Repeated the Response Guidelines Training Sessions

A theme that emerged from our interviews with post staff members was the need for Response
Guidelines “refresher” training sessions to be conducted at posts beyond the requisite one session
per year. Staff believed this would be useful in order to ensure the response steps are well
understood, and to allow first responders to practice role plays so they feel confident and
prepared for a real incident. First responders who had multiple opportunities through role plays
to practice providing a response to Volunteer victims reported feeling more confident to respond
to actual incidents. Staff members also reported that receiving refresher training would be
necessary to stay prepared. One staff member stated, “If nothing happens you have to stay
refreshed to be prepared to respond.”

We found that CDs selected staff to be trained and conducted the Response Guidelines training
differently at the 15 posts we reviewed. At eight of the posts we visited, all of the staff
participated in the Guidelines training. Seven of the posts included just those staff members with
defined roles as first responders, including duty officers, the SSC, and PCMOs. Some posts
provided multiple trainings to ensure all staff members attended.

Many of the post staff members we interviewed felt that all post staff should be exposed to the
Response Guidelines material, with in-depth training provided for first responders more than
once per year. We concluded from our field work that conducting in-depth refresher trainings for
first responders more frequently than once per year will help to ensure first responders feel
prepared and ready to effectively respond to a Volunteer sexual assault incident. We also
concluded that there are benefits to including all staff in a Guidelines training, such as ensuring
staff understand the Peace Corps’ Commitment to Sexual Assault Victims and the importance of
safeguarding the victim’s privacy. Including all staff in such trainings would ensure that all post
staff members would be aware of the agency’s expectation regarding Volunteer sexual assault
response, care, follow-up support, and the victim’s right to privacy and confidentiality, even if
they do not have a defined response or support role. For example, drivers or program staff may
not be informed that a sexual assault incident had occurred, but they frequently transport
Volunteer victims or assess safety or other program considerations at a Volunteer site where a
crime has occurred. Providing all post staff with training on the agency’s guidelines and
protocols related to Volunteer sexual assault would also address the requirements contained in
the Kate Puzey Act to train all staff outside the United States regarding the agency’s sexual
assault policy.

SS Office and Victim Advocate Services Headquarters Support

Volunteer victims of sexual assault who spoke with OIG, testified before Congress, or submitted
written accounts of their assaults made it clear that more professional expertise should be
brought to the agency’s response effort. Subject matter experts stress the importance of the
accessibility of quality advocacy services following an assault as vital to diminishing the short-
and long-term impacts of trauma. 16 In testimony to Congress, a subject matter expert who
reviewed the agency’s response protocols testified that “Having a victim advocate there from the

16
  DeHart, D.D., National Victim Assistance Standards Consortium: Standards for Victim Assistance Programs and
Providers (South Carolina: Center for Child and Family Studies, University of South Carolina, 2003), p. 53.

Final Report: Review of the Peace Corps’ Implementation of                                                 13
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
beginning of the process…[will] allow [the victim] to focus on their recovery instead of
navigating multiple systems.”

We found that for the rape and major sexual assault incidents we examined, the SS lead security
specialist or, after May 2011, the victim advocate were available to assist posts in their response
effort. Assistance to post staff included timely review and consideration of victim safety in the
aftermath of a sexual assault, the host country legal environment and forensic medical
examination process, and how and where to identify and collect evidence.

In February 2011, the agency initiated a search for a victim advocate to be responsible for:

    •   Serving as the principal agency advocate for Volunteers who become victims of crime.
    •   Developing processes to ensure effective communications channels for victims.
    •   Establishing best practice protocols for victim support.
    •   Developing training objectives and course materials for formal training programs in the
        area of victim's advocacy.
    •   Liaising and consulting with other federal agencies and outside organizations on victims'
        support and advocacy.

In May 2011 the victim advocate entered on duty and assumed a case management role to ensure
Volunteer victims receive timely support services in the aftermath of serious crime incidents.
During the remainder of 2011 the victim advocate provided support to 48 Volunteers in 28
countries. She supported 34 Volunteers and four RPCVs reporting sexual assault and 10 other
Volunteers reporting crimes including physical assault, aggravated assault, burglary with
assault, harassment, and stalking.

The type of services provided by the victim advocate included: explanation of support services
available; in-country legal options; and assistance with site changes, country transfers, medical
evacuations, and receipts of benefits. During her work at posts, the victim advocate accompanied
victims to meetings with local police and court appearances. The victim advocate has worked
with OIG, OGC, SS, OMS, and region and post staff to ensure consideration of victims' needs
and perspectives, and to ensure that victims of sexual assault or other crime or safety incidents
are treated with compassion and respect.


                 We recommend:

                   1. That posts conduct annual “all staff” sexual assault
                      training sessions and periodic first responder refresher
                      sessions to ensure all post staff are fully informed of the
                      agency’s sexual assault response policies and understand
                      the response and care protocols.




Final Report: Review of the Peace Corps’ Implementation of                                        14
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
Rape and major sexual assault victims we interviewed whose incidents occurred between 2009
and 2011 were generally satisfied with the agency’s response.

In issuing its Response Guidelines in February 2011 the agency advised posts that the guidelines
were a “game plan by which post will provide timely and effective response, especially in the
first crucial hours after the incident is reported.”

In its 2011 Commitment to Sexual Assault Victims the agency signaled a commitment to provide
a compassionate and supportive response to all Volunteers who have been sexually assaulted.
Sexual assault victims who had previously approached the agency regarding their incident, those
who provided congressional testimony in 2011, and others who submitted written accounts of
their experience expressed a range of concerns:

       •   Staff did not know what to say to the Volunteer victim or what support to offer.
       •   Staff “explained away” the attacker’s actions.
       •   Staff took no action when victims reported concerns about their personal safety.
       •   Victims felt pressured to leave their post or to leave service altogether.

We interviewed 17 Volunteer sexual assault victims who reported a rape, major sexual assault or
other sexual assault between 2009 and 2011. 17 We asked Volunteer victims to discuss which
elements of the staff members’ responses worked well and what could be improved. In addition
to our interviews with these 17 victims, we interviewed five victims whose sexual assaults
occurred before 2009. We also analyzed written statements submitted to OIG from 42 victims to
identify aspects of the agency’s response they considered either satisfactory or unsatisfactory in
their view. Written statements submitted to OIG provided perspective on agency response and
care to victims prior to 2009; however, because of data limitations we could not verify
statements made or determine the quality of the agency’s response and support provided to those
victims. While we considered the issues and information brought to our attention by victims of
sexual assault whose assaults dated back several decades or more, we established the 2009 to
2011 timeframe for our review in order to examine the agency’s response preparedness and
capabilities in a contemporary timeframe, and to review action taken to support victims in
relation to policies, protocols and guidelines.

In our interviews with Volunteer rape and major sexual assault victims whose incidents occurred
from 2009 to 2011, the Volunteers’ accounts of the support received in the aftermath of their
assault reflected general satisfaction with the agency’s response, care and support efforts. The
Volunteer victims we interviewed generally agreed that:

       •   Volunteers were able to promptly contact staff in the aftermath of their incident.
       •   Staff responded compassionately.
       •   First responders and key staff members coordinated timely responses so that medical and
           safety/security staff could meet with Volunteers in person for medical and safety
           assessments.

17
     See “Interviews Conducted” page 40 for a breakdown of Volunteers interviewed by sexual assault category.


Final Report: Review of the Peace Corps’ Implementation of                                                      15
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
    •   Staff adequately explained options for counseling and legal options to the Volunteer.
    •   PCMOs and/or, after May 2011, the agency’s victim advocate followed up with the
        Volunteer to monitor their well-being and to provide status updates on legal efforts or
        their continued service.

However, as we will discuss in our next finding, we found that some Volunteer victims of OSA
incidents were less satisfied with the quality of the agency’s response and care, and that lapses in
the response effort had occurred. This can be attributed in part to the lack of standardized
protocols and procedures for this type of incident.

Effectiveness of Post Staff's First Response Effort

Volunteer victims we interviewed generally described staff members’ responses as “attentive,”
“thorough,” and “available.” Staff were described as using non-blaming language while
collecting information from the Volunteer regarding their location, safety and medical needs. In
the aftermath of the immediate response effort, staff members discussed and offered victims
options for counseling or to pursue prosecution. Volunteers who received counseling were
generally satisfied with the counseling they received from headquarters COU or local counselors.
Those choosing to pursue prosecution felt the appropriate steps were taken to collect forensic
evidence and to accompany and support them when filing police reports or taking other legal
action.

The following are examples of feedback provided by Volunteer victims describing their attitude
about the overall response effort by post staff:

        “The staff was very responsive.… The PCMO called me weekly to check on my situation…. The
        SSC checked on me several times.”

        “More than anything else, [the PCMO] gave me some space to think about what happened. I was
        emotionally distraught.”

        “Post was responsive, accommodating, available.... The SSC said the right things, ‘I’m sorry this
        happened to you.’”

        “I called the SSC right away. Reporting was stressed in pre-service training… the SSC inquired
        about my condition… the PCMOSs called me the next day… they put several options out for me
        for the future if I was having any problems. The SSC called me again in 2-3 weeks to see how I
        was doing.... I am very pleased with how this was handled.”

        “I had more than adequate support from the medical office… the [in-country] counselor was phenomenal.”

Staff Self-assessment of Preparedness to Respond

There was a consensus among the staff members we interviewed who serve as first responders
that they have the necessary training and guidance to receive a sexual assault report and to help
the Volunteer access support and begin their process for recovery. According to the OMS
programming and training expert, a result of the focus given to this issue during 2011 in OMS’s
Medical Overseas Training (MOST) and Continuing Medical Education (CME) seminars is that,


Final Report: Review of the Peace Corps’ Implementation of                                                  16
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
“PCMOs are better trained to sit with the victim and listen to their story, and to discuss options
with the Volunteer to stay in country or be medically evacuated.”

Post staff members we interviewed described their preparedness to respond to a sexual assault as
follows:
        “[The] focus of the agency is to make sure we offer more psychological support, that the victim advocate
        is made available, that PCMOs are advocates for Volunteer welfare.”

        “The most recent response worked well. The SSC coordinated with the RSO and the local police for
        evidence collection. The CD was coordinator and oversaw the response. Communication between each
        actor was good.”

        “What works well in this post is they have a process and people work as a team, know their roles.
        They know they need to respond to the physical, emotional and the legal aspects.”

Written statements and testimony to Congress reflects that some past Volunteer victims felt that
staff had taken no action in response to concerns they voiced regarding their personal safety at
their sites. The agency has worked to address such issues through additional guidance and policy
to staff. In September 2011 the agency issued Safety and Security Instruction 202, a guide for
posts to respond to situations that threaten the well-being of Volunteers, including situations in
which Volunteers express concern for their safety. This guidance includes removing Volunteers
from their sites until the environment is assessed and any imminent threats are mitigated. In the
interviews we conducted with Volunteers reporting sexual assaults from 2009-2011, we did not
receive reports of staff failing to respond to site safety considerations.

Support and Response to Victims in the Aftermath of the Assault

Blaming the victim has been raised as an issue by past Volunteer victims of sexual assault. In the
past some Volunteer victims had been asked to develop written statements summarizing behavior
that may have led to their assault. Others reported being placed on “behavioral contracts”
concerning the abuse of alcohol. Subject matter experts emphasize that victim-centered response
strategy recognizes “that victims are never responsible, in all or part, for their assault, regardless
of the circumstances leading up to or surrounding the assault.” For instance, the Standards
underscore that responders should refrain “from behaviors that communicate victim blame,
suspicion regarding victim accounts of the crime, condemnation for past behavior, or other
judgmental…sentiment.”

In November 2011 the Peace Corps issued Interim Policy Statement 1-11 “Immunity from Peace
Corps Disciplinary Action for Victims of Sexual Assault.” The purpose of the interim policy is to
encourage Volunteers to report sexual assault and to discourage staff from focusing on the
victim’s behavior or otherwise blame the victim for the assault, either directly or indirectly. The
interim policy provides the sexual assault victim, as well as any witness who provides
information or assistance in relation to the sexual assault, with immunity for policy violations
related to the incident.

Subject matter experts stress that an important role of staff members responsible for the sexual
assault response effort is to “mitigate the harm and trauma that victims experience” and allow

Final Report: Review of the Peace Corps’ Implementation of                                                         17
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
victims to experience a sense of justice regardless of the legal outcome of their case. It is
important to establish an environment in which the victim believes “reporting to and
participating in the criminal justice system is a safe and viable option.” 18

We found that for some 2011 sexual assault incidents we examined, Volunteers were asked to
submit a written statement to confirm that they declined to seek legal prosecution. Senior SS
staff and others responsible for sexual assault response who we interviewed recognized this may
be re-traumatizing for the victim. Senior SS staff have provided direct instructions to post staff to
document the victim’s wishes in case notes and CIRS rather than collecting a written statement
from the victim. They have also reviewed how staff should properly address this topic in staff
training sessions, which is particularly important since the decision to proceed with prosecution
may still be made by a victim at a later date. Use of a centralized case management system,
which we address later in this report, would also offer a mechanism to collect and document
information regarding victims’ wishes regarding prosecutorial or other legal options.

Volunteer victims who ended their service as a result of their sexual assaults had expressed
concerns about the negative effects of the abrupt end to their Peace Corps service. They
described emotional and re-adjustment challenges brought on by the sudden return home without
having traditional end of service ceremonies and activities, as well as the challenges posed by
explaining the unexpected early return to family and friends, or when seeking employment. We
reviewed records of 2011 Volunteer sexual assault victims who had received support from OMS
counselors and found that they had supported assault victims in close of service paperwork and
had helped them prepare to respond to questions about their Volunteer service and abrupt close
of service.

Maintaining Victim Confidentiality

An element of victim-centered response is prioritizing the privacy of the victim and his or her
right to confidentiality. The agency’s Commitment to Sexual Assault Victims underscores that
staff will respect victim privacy and will not, without their consent, disclose their identity or
share the details of the incident with anyone who does not have a legitimate need to know. Some
staff members with long experience responding to Volunteer sexual assault and some subject
matter experts who reviewed the Response Guidelines expressed concerns about maintaining
victim confidentiality due to the increased number of staff members who have a role in the
response effort.

Volunteer victims we interviewed whose incidents occurred during 2009-2011 did not raise
breaches of their confidentiality as an issue. All PCMOs interviewed confirmed that, to their
knowledge, victim confidentiality had been maintained for the incidents they handled. Staff
members with first response roles indicated that a benefit of the Response Guidelines training
was that they felt better prepared to take an initial victim report in a compassionate and thorough
fashion, and at the same time, to limit questions and information gathered to what is required for
an immediate response.


18
  The Sexual Assault Response Team (SART) Handbook, Version III, July 2009 (Grant No. 2008-TA-AK-K029
awarded by the Office on Violence Against Women, U.S. Department of Justice).

Final Report: Review of the Peace Corps’ Implementation of                                              18
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
MS 268 “Medical Confidentiality” and TG 150 “Medical Confidentiality” outline steps for
safeguarding Volunteers’ medical information. The federal government also mandates specific
rules for protecting personally identifiable information and certain medical information under
both the Privacy Act and the Health Insurance Portability and Accountability Act of 1996. 19 Of
note, some external subject matter experts reviewing the Response Guidelines recommended
additional guidance and clarification from the agency regarding which staff members had a
“need to know” about sexual assaults. Experts point out that without further guidance and
clarification Volunteer victims might not feel comfortable reporting an incident. Due to the scope
limitations of this review, we were unable to verify whether Volunteer victims view the number
of staff members involved in the current response and support effort as a reporting deterrent.

The agency does not have a standard protocol for response and support to Volunteers who are
victims of “other sexual assault” incidents.

The agency’s Commitment to Sexual Assault Victims states, “Peace Corps is committed to
providing a compassionate and supportive response to all Volunteers who have been sexually
assaulted,” and further states, “We will provide you with the support you need to aid in your
recovery.” Most of the Volunteer sexual assault victims we interviewed reported that staff were
responsive to their initial incident reports and followed up regarding their safety and well-being
in the days and weeks after their assaults. However, Volunteers that reported OSA incidents were
not consistently receiving medical consultations or the follow-up care and support they may have
needed. Volunteers we interviewed who reported other sexual assault incidents received varied
forms of response, and some received little or no safety and security or medical staff follow-up.

According to agency Volunteer crime incident data, from 2002 to 2010 sixty-six percent of
reported sexual assaults were other sexual assaults. However, the agency’s Response Guidelines
do not include a protocol for response to Volunteers who report OSA incidents. The response
procedures contained in the Response Guidelines address actions to be taken only for victims of
a rape/attempted rape or major sexual assault, and do not provide instructions for medical, legal,
or safety and security support to OSA victims.

TG 540 provides guidance for PCMOs to treat and report Volunteer sexual assaults, including
incidents that meet the definition of other sexual assault. TG 540 requires that PCMOs notify the
CD, the victim advocate, the Office of Volunteer Support duty officer, and the area or regional
PCMO when managing a Volunteer sexual assault incident. However, the Response Guidelines
do not include protocols or instructions to staff.

MS 270 requires that CDs establish response and support procedures for all crimes committed
against Volunteers. Therefore, crime notification and post follow-up procedures for OSA
incidents are established individually by each post. Referring an OSA victim to the medical
officer is dependent on post-developed protocol and may be at the discretion of individual staff

19
  The Privacy Act of 1974 (P.L. 93-579), applicable to all U.S. agencies, protects the privacy of information the
government keeps about individuals in name-retrievable files, but permits sharing of information on a need to know
basis. The Health Insurance Portability Act of 1996 (P.L. 104-191) requires the establishment of national standards
for electronic health care transactions and national identifiers for providers, health insurance plans, and employers;
and also helps to ensure the security and privacy of health data.

Final Report: Review of the Peace Corps’ Implementation of                                                          19
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
members responding to the incident. Under these circumstances, PCMOs may not be informed of
an OSA incident if there is no physical injury, or if the victims do not choose to report directly to
the PCMO or seek counseling themselves after the incident.

The OSA cases we reviewed often required some ongoing monitoring by a PCMO or other staff
member. Many of the Volunteers we interviewed said they benefited from a check-in and follow-
up from staff after they reported their sexual assault. For example, a PCMO continued to check
on a Volunteer’s well-being after the decision was made to continue to serve in the same
community where she was assaulted. Another PCMO informed of an OSA was able to promptly
treat a Volunteer who began experiencing panic attacks a month after the incident occurred.

However, for some cases we reviewed, OSA victims received little or no follow-up because
PCMOs were not informed of the incident, or the SSC taking the initial report of the incident did
not refer the Volunteer to the PCMO for consultation. We found that without a physical injury,
PCMOs were less likely to receive notification of an OSA either directly from a Volunteer or
from the SSC. PCMOs may not routinely have access to the post’s crime incident reports, and
those with access may not be immediately informed of a Volunteer OSA by another staff
member when the incident occurs.

OSA victims said PCMO follow-up would have helped them to better cope with psychological or
emotional issues that emerged after the incident. These issues included symptoms of stress and
negative attitudes towards their host community. Some Volunteers who reported OSA incidents
had experienced serial or escalating incidents of harassment or sexual assault. Follow-up contact
by medical staff or the SSC offers the opportunity to review Volunteer safety preparedness, site
security, or to suggest mitigation strategies.

Volunteer OSA victim comments regarding incidents in which the PCMO was not notified
included the following:

        “…the only area I would want some different approach on was I never got any other follow-up from SSC
        [name] or maybe the PCMO — I don’t know if they did not see a need to, or if it was overlooked, but I
        reported and that was it. Maybe [the SSC] determined I was not too bothered by it and did not pursue it.”

        “The SSC told me a PCMO would call me and it never happened. At the time I realized I really would like
        to process this a little more with someone. I was mad that these events had occurred and even got a little
        down about the country as a result.”

According to MS 270, the SSC “is responsible for the overall coordination of the post’s
Volunteer safety and security support system and must collaborate closely with other staff to
ensure that all required components of the Volunteer safety and security support system are
operational and are being properly executed.” However, we determined that some SSCs had
made their own judgments regarding the well-being of the Volunteer OSA victim without
involving the PCMO or other post staff. It is clearly inappropriate for an SSC to make clinical
judgments regarding a Volunteer’s physical or emotional well-being.

Senior staff at the posts we visited and headquarters medical and safety specialists agreed that
PCMOs should always be notified when a Volunteer reports an OSA. The PCMO is the only
post staff member qualified to recognize symptoms of behavior triggered by a traumatic event

Final Report: Review of the Peace Corps’ Implementation of                                                          20
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
and develop a treatment plan for a sexual assault victim. PCMOs have the training and
experience to conduct physical examinations of Volunteers and to detect post-trauma symptoms.
PCMOs and regional or headquarters medical staff have access to Volunteers’ medical histories
and may have knowledge of previous traumatic events, including prior sexual assaults, which
may influence the services or treatment provided to the victim.

Without a standardized protocol for responding to OSA incidents, post staff cannot consistently
provide response and follow-up care to Volunteer OSA victims. The lack of a standardized
protocol presents the potential for lapses in the first response effort or poor quality care for
Volunteers who experience OSA incidents. Prompt and appropriate care for OSA victims would
help prevent or reduce post-trauma symptoms that may occur in the aftermath of the incident.
Documentation of all OSA incidents in the Volunteer’s medical record also ensures the
Volunteer receives any treatment that may be needed after the close of service.


                 We recommend:

                   2. That the agency develop sexual assault policy and
                      guidance for other sexual assault (OSA) incidents
                      including procedures for taking reports and responding
                      to the care or support needs of OSA victims, and that it
                      incorporate this guidance into its Response Guidelines.


Procedural or informational gaps in the Guidelines for Responding to Rape and Major
Sexual Assault led to confusion or delays in reporting some incidents.

In order to establish a clear understanding of the duties assigned to staff members who respond
to sexual assault and to ensure accountability, the Standards recommend written guidelines for
all program staff. The Response Guidelines are missing guidance related to the responsibilities of
some key staff members or Peace Corps offices with Volunteer sexual assault victim response
duties. We found that:

    •   Some CDs lacked a full understanding of the lines of responsibility between the agency
        and OIG.
    •   The Response Guidelines do not define the role of the victim advocate hired in May 2011
        or describe the specific support role of the SSC in Volunteer sexual assault incidents.
    •   Differences in protocols contained in the Guidelines and TG 540 “Clinical Management
        of Sexual Violence” were confusing to some CDs and PCMOs.

Addressing these gaps and the differences in policy and protocol will lead to improved support
of Volunteer victims of sexual assault.




Final Report: Review of the Peace Corps’ Implementation of                                       21
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
Role of OIG in Response to Volunteer Sexual Assault

Some rape or sexual assault incidents at Peace Corps posts involve incidents in which a
Volunteer or a Peace Corps staff member is the alleged perpetrator, or both the victim and
alleged assailant are Volunteers. According to CIRS data, from 2009 through 2011 there were 16
reported rapes or sexual assaults in which the alleged perpetrator was another Volunteer, and one
reported other sexual assault in which the alleged perpetrator was a Peace Corps staff member.
During this three-year period, in total, there were 450 reported rape or sexual assault incidents
against Volunteers.

MS 861 “Office of the Inspector General” stipulates that its investigative unit will investigate
suspected or reported allegations of wrongdoing or serious misconduct when allegations involve
agency employees, Volunteers, trainees, companies, consultants, experts or others receiving
funds from the Peace Corps. MS 861 specifically instructs that all allegations of Volunteer
sexual assault in which the alleged perpetrator is a Volunteer, trainee, or staff member be
reported to OIG. When OIG assumes responsibility for cases of alleged sexual assault involving
a Volunteer victim and a Volunteer or staff perpetrator, it advises Peace Corps staff that
interaction with the involved Volunteers should be limited to providing medical and other
support until an OIG investigator is available to respond.

Some CDs have misinterpreted or misunderstood the Response Guidelines regarding reporting to
OIG or the actions to be taken in the immediate aftermath of reported Volunteer-on-Volunteer
sexual assault. This has resulted in the interview of an alleged Volunteer perpetrator prior to
reporting the incident to OIG. In another case, a CD was uncertain regarding the requirement to
immediately report allegations to OIG, resulting in delays in notification.

According to OIG senior managers, the OIG is required to carry out investigations “in
accordance with applicable laws, rules, standards and regulations and with due respect for the
rights and privacy of those involved.” Interviews of Volunteer victims or perpetrators conducted
by staff in advance of OIG investigation can interfere with OIG’s ability to carry out its
investigation and may jeopardize the legal or privacy rights of those involved. Any delay in
reporting or initiating investigative activity could negatively impact the outcome of an OIG
investigation.

There is limited agency guidance on how to handle some of the unique issues that arise in
responding to Volunteer-on-Volunteer sexual assault allegations. The agency’s Response
Guidelines have a single reference to the role of OIG: “If the Volunteer was assaulted by a staff
member or another Volunteer, the Country Director (CD) must also notify the Office of the
Inspector General (OIG).” In our interviews with staff members who had recently managed a
Volunteer-on-Volunteer sexual assault, some reported that they lacked specific guidance on the
steps to take, including provisions to be made for the safety, housing, support, or care to both the
victim and the alleged perpetrator in the immediate aftermath of these allegations. A revision to
the Response Guidelines that describes OIG's role and investigative responsibilities and updating
sexual assault response training modules to include this information, would help eliminate
confusion on the part of staff.



Final Report: Review of the Peace Corps’ Implementation of                                        22
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
Role of the Victim Advocate

A victim assistance provider’s role may encompass a range of services and activities depending
on a victim’s individual mental, physical, social, and emotional needs. Typical victim assistance
services include crisis intervention, assessment of basic victim needs, information and referral,
court accompaniment, intermediate and long-term support services, case planning, and
consultation with other professionals involved in the response to and support of the victim.

The agency hired a victim advocate who entered on duty in May 2011. The victim advocate
immediately initiated response support to Volunteer victims of crime. However, due to the fact
that the victim advocate was hired several months after the Response Guidelines were
distributed, the role of the victim advocate is not delineated in that document. The agency did not
issue written guidance to posts describing the role of the victim advocate until November 10,
2011. In that communication, posts were advised that “the victim advocate serves as a liaison
between and advisor to Peace Corps posts and offices involved in providing response and
support services to Volunteers who have been victims of sexual assault and violent crime.”

As a result of this six-month lapse in notification, there was some confusion at posts regarding
the victim advocate’s role and responsibilities during her initial months of service. Some field
staff members reported they were uncertain of the victim advocate's role when initially contacted
by her and were not certain of the protocol for sharing Volunteer sexual assault information with
the victim advocate. Over time, staff reported that the victim advocate’s role became better
understood and that the support provided has been useful. A full description of the victim
advocate’s services and role in the Response Guidelines document and in sexual assault response
training modules would help eliminate confusion on the part of post staff.

Role of Safety and Security Coordinator

SSCs are assigned to all Peace Corps posts as part of the agency’s commitment to the safety and
security of Volunteers. The SSC Statement of Work lists the following responsibilities for
support functions related to a Volunteer crime incident:

    •   “Develop and maintain contact with embassy security staff and local law enforcement… to foster
        relationships that can be leveraged… in response to crime incidents;”
    •   Provide “immediate and direct support to a [Volunteer] in the event of an incident” including to refer
        Volunteers “to necessary medical and emotional support, assist [Volunteer] to file a police complaint, and
        reevaluate the Volunteer’s site and/or home;”
    •   “Participate in the legal environment survey… so that they can accurately advise the CD and [Volunteer]
        when crime incidents occur;”
    •   Coordinate the post duty officer system and “train designated duty officers on their roles and
        responsibilities for responding to and reporting of incidents.”

The SSCs we interviewed reported that, as a result of the 2011 Response Guidelines training,
they understand the steps the post is expected to take in its response to a Volunteer sexual assault
incident. They described their duties in the aftermath of a sexual assault, such as submitting
CIRS reports to headquarters, assisting Volunteers with police reports, or assessing the safety
and security of a Volunteer victim and the Volunteer community. However, the SSC-specific


Final Report: Review of the Peace Corps’ Implementation of                                                       23
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
roles and responsibilities in the aftermath of a Volunteer sexual assault are not directly addressed
in the Response Guidelines.

The Response Guidelines section “Resources in the Field” describes services the U.S. Embassy’s
RSO and regionally-based Peace Corps safety and security officer may provide in the aftermath
of a sexual assault; however, there is no reference in this section to the SSC as an available
resource in the sexual assault response effort. SSCs are dedicated safety and security resources in
place at each post who can help ensure the post is providing a quality response and fulfilling its
Commitment to Sexual Assault Victims. In order to be deployed effectively as a resource, SSC
responsibilities for response and support to Volunteer sexual assault victims should be clearly
spelled out in the Response Guidelines and included in sexual assault response training modules.

Mixed Agency Guidance Regarding Headquarters Notification of Volunteer Sexual Assault

Post staff members are expected to follow the Response Guidelines disseminated in February
2011 to conduct a timely and effective response in the first crucial hours after an incident is
reported. However, the notification protocols described in the Response Guidelines and TG 540
“Clinical Management of Sexual Violence” created some confusion regarding the process for
reporting to headquarters. As a result, we found situations in which PCMOs had not notified the
headquarters OMS Duty Officer in the aftermath of a sexual assault because they believed that
CD notification to the Peace Corps headquarters duty officer satisfied the requirement to notify
Peace Corps headquarters (see Figure 1, p. 8 for the current reporting protocols).

The purpose of TG 540 is “to establish procedures to provide patient-centered medical care and
appropriate medical-legal management of Volunteers who have been sexually assaulted.”
According to TG 540, when managing a sexual assault PCMOs must “contact the headquarters
Volunteer Support duty officer and the Peace Corps regional medical officer or area Peace Corps
medical officer as soon as possible, but no later than 24 hours after the incident.” 20 Notifying
OMS staff ensures that timely, adequate medical and mental health support is provided to the
victim. In addition to the PCMO’s TG 540 reporting requirements, the Response Guidelines
require that the CD report rape/attempted rape and major sexual assault to SS to ensure the
victim’s safety and security needs are met. The Response Guidelines require that the CD verify
that the PCMO has contacted the OMS duty officer.

We asked PCMOs at posts we visited to describe their responsibilities for sexual assault
response. It was unclear from the responses PCMOs provided that they were all fully aware of
their responsibility to notify the OMS duty officer in the aftermath of a reported sexual assault.
SS and OMS staff agreed that there was a need to align the Response Guidelines notification
protocol with the TG 540 instructions. The Response Guidelines do not state a specific time
requirement to notify the OMS duty officer; TG 540 instructs the PCMO to notify the Volunteer
Support duty officer and the regional or area medical officer within 24 hours. The policies refer
to the OMS duty officer using different titles: one refers to the medical duty officer as the
“Volunteer Support duty officer,” and the other refers to the same individual as the “OMS duty
officer.”


20
     Regional or area medical officers provide support to post PCMOs.

Final Report: Review of the Peace Corps’ Implementation of                                        24
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
                 We recommend:

                   3. That the agency incorporate the following topics into its
                      Response Guidelines and staff training modules: the role
                      of the victim advocate, the role of the safety and security
                      coordinator, and the role of the Office of Inspector
                      General for investigating Volunteer sexual assault.

                   4. That the agency clarify notification requirements and
                      align instructions in the Response Guidelines and Medical
                      Technical Guideline 540 to ensure clear and specific
                      instructions for notification of headquarters offices in the
                      aftermath of a Volunteer rape or sexual assault.


    B. SEXUAL ASSAULT STAFF T RAINING

To assess sexual assault training provided to Peace Corps staff in 2011, we reviewed curricula
and observed staff safety and security and rape/sexual assault response training sessions
conducted by the agency in 2011. We interviewed staff with response and care responsibilities
during and after these training sessions and asked them about their preparedness to respond to
sexual assault victims. We compared staff training programs conducted in 2011 with staff
training delivered prior to 2011 and learned about changes in the training modules from
participating staff.

Peace Corps added to and expanded sexual assault awareness and response training for staff in
2011. The agency delivered more in-depth training on safety and security and sexual assault
topics to staff in a variety of training settings during the year. It delivered training to CDs and
directors of program and training (DPTs) who participated in the Overseas Staff Training (OST)
program in June and October 2011; to SSCs, DPTs and training managers in regional safety and
security training-of-trainer presentations conducted in 2011; and to PCSSOs in a training
conference held in July 2011. All PCMOs in our review of 15 posts received in-depth sexual
assault training either at a regional continuing education conferences or at the Medical Overseas
Staff Training sessions offered during 2011.

We determined that the 15 Peace Corps posts we visited had delivered the Response Guidelines
training session as required. Staff members who received these trainings reported that they felt
better-prepared to respond to Volunteer victims of sexual assault. However, we found that not all
staff members with responsibilities as first responders at these posts had attended the mandatory
Response Guidelines training as required.

Staff members we interviewed told us that the Response Guidelines training provided a forum to
discuss American and host country perceptions, culture, laws and norms regarding appropriate
and inappropriate sexual behavior, and to consider these attitudes in the context of the agency’s
Commitment to Sexual Assault Victims. Some posts have used the country-specific information


Final Report: Review of the Peace Corps’ Implementation of                                        25
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
generated from those discussions to strengthen harassment and sexual assault awareness and
mitigation strategies in their Volunteer training programs. Capturing and incorporating this
information into Volunteer, counterpart, partner agency, and post staff training programs is a best
practice that could be extended to other posts as they conduct annual Response Guidelines or
related staff training.

We found that staff members assigned as acting CD were not consistently trained to conduct
incident response or oversee sexual assault incident management during a CD’s absence. We
also observed that some headquarters staff members with rape and sexual assault response and
support roles did not receive formal Response Guidelines training in 2011.

Participation of country directors and medical officers in the 2011 Response Guidelines
training was inconsistent.

The Standards recommend written guidelines for the required hours of training and content for
staff providing victim services, and for ongoing professional staff development in order to build
the necessary skills for direct services and coordination of services to victims.

Prior to the February 2011 dissemination of the Response Guidelines to all Peace Corps posts
and the mandatory training sessions on the Guidelines, posts were not required to regularly
provide standardized sexual assault response trainings to first responder staff. The content of
each post’s staff training programs was defined by the post-specific crime response protocols
rather than a standard protocol used by every Peace Corps post. The agency began offering the
Response Guidelines training to new CDs in OST training programs delivered during 2011. Prior
to 2011, sexual assault training was provided to new PCMOs in MOST each year, and every few
years PCMOs also received refresher trainings during CME conferences.

On February 24, 2011, the agency transmitted the Response Guidelines to all posts, and the
following month it transmitted Guidelines training materials and a facilitator’s guide to posts. In
the agency’s transmittal memo accompanying the Response Guidelines, CDs were advised “it is
essential that you become intimately familiar with the procedures set forth in the Response
Guidelines and ensure that they are followed in the event that such an incident occurs at your
post.” CDs were advised to personally convene training sessions to be conducted by appropriate
staff members, such as the Director of Programming and Training (DPT), PCMO, SSC, or
regional PCSSO, and to ensure that key staff members, especially those who serve as duty
officers, were trained in the new procedures. CDs were further instructed to provide this training
annually to all staff members with first responder or other care and response roles.

We interviewed staff members from 15 country programs who participated in the 2011 Response
Guidelines training conducted at their posts. Post staff members who participated in these
trainings reported they felt better prepared to respond to Volunteer sexual assaults. Volunteer
sexual assault victims' feedback confirmed that post staff members’ responses have improved.

We found that not all CDs and PCMOs attended the Response Guidelines trainings as instructed.
One CD and three PCMOs we interviewed reported they did not attend the Response Guidelines
training. We discussed with staff the benefits of CDs and PCMOs attending the Response


Final Report: Review of the Peace Corps’ Implementation of                                       26
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
Guidelines training, such as confirming staff members' willingness and ability to serve as first
responders, and participating in discussions and answering questions.


                 We recommend:

                   5. That the agency ensure that all country directors, Peace
                      Corps medical officers and staff with a sexual assault
                      response and care role attend annual Response Guidelines
                      training sessions, and that staff participation in training
                      be tracked and documented.


Staff members assigned as acting CDs were not consistently trained to conduct incident
response or oversee sexual assault incident management.

Volunteer sexual assault victims submitted complaints to the agency and OIG that they had not
received adequate response or support from acting or back-up staff in the aftermath of their
assault incident. We reviewed the agency’s process and materials for training staff to serve as
back-up CD. We also observed the OST sessions related to Volunteer safety and response to
crime incidents. We found that staff members who serve in an acting capacity were not
consistently receiving training that would prepare them to perform the Volunteer sexual assault
response and follow-up duties expected of an acting CD. We note that the agency’s Sexual
Assault Working Group identified this as an issue in 2008.

Post directors of management operations (DMOs) and DPTs are routinely asked to act on behalf
of the CD in his/her absence. We reviewed DMO and DPT position descriptions and
performance plans furnished to us by regional management and the Office of Human Resources.
We found that the position descriptions and performance plans are not consistent in referencing
the responsibilities to manage the post response to sexual assault while serving on behalf of the
CD in his or her absence.

Some of the staff members we spoke with at posts, including those who had received the 2011
Response Guidelines training, reported that they did not feel fully prepared to respond to sexual
assault incidents while serving as acting CD. We observed overseas staff training sessions in
2011 and reviewed the materials provided to staff. DPTs and DMOs participated in the sexual
assault awareness and response training sessions; however, their specific responsibilities while
serving as acting CD were not treated in these training modules. Instead, the DPTs and DMOs
were encouraged to consult with their CDs at post to discuss these duties further.

We reviewed materials distributed at the OST training program. The guidance distributed to
DPTs regarding their duties as acting CD stated they must be prepared to respond to Volunteer
rape and sexual assault and ensure the safety and well-being of Volunteers in a crisis situation.
However, the distributed materials referenced outdated policies and did not reference the
Response Guidelines or the post’s LES. For instance, the training materials advised acting CDs
to phone the regional director or the country desk officer in the event of a major crisis. This


Final Report: Review of the Peace Corps’ Implementation of                                          27
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
conflicts with the Response Guidelines requirement to notify the headquarters duty officer that a
rape/attempted rape or major sexual assault had been reported by a Volunteer, and could make it
more difficult for the duty officer to provide immediate guidance to acting CDs.


                 We recommend:

                   6. That the agency provide Volunteer sexual assault
                      response training for staff members who will serve as
                      acting country director, and include the duties for
                      managing sexual assault response in overseas staff
                      training modules.

                   7. That, for those staff who will serve as acting country
                      director, the agency include the duties and responsibilities
                      for managing Volunteer sexual assault response in
                      position descriptions and performance plans.


Some headquarters staff members with responsibilities for response or care to sexual assault
victims had not participated in the 2011 sexual assault Response Guidelines training.

The agency’s Commitment to Sexual Assault Victims states that the Peace Corps will take
appropriate steps to provide for the victim’s ongoing safety, to help them understand the relevant
legal processes and legal options, and to provide the support needed to aid in recovery. In order
to meet that commitment, headquarters staff members with responsibilities for responding to
Volunteer sexual assault incidents, and those with responsibilities for training Peace Corps staff
members as first responders, need to be fully knowledgeable of the agency’s sexual assault
policies and response protocols.

In 2011 some headquarters staff members with responsibilities to support post staff or Volunteer
victims were provided with Response Guidelines training. This included selected staff from SS,
OMS, and COU, among others. However, we confirmed in interviews that not all VS, OMS and
OGC staff with responsibilities for responding to Volunteer sexual assault incidents participated
in training sessions on the Response Guidelines.

We attended training sessions presented in the October 2011 MOST program and observed OMS
headquarters staff facilitating case study scenarios and role plays. Some of the MOST facilitators
were not fully familiar with the Response Guidelines and did not consistently reinforce current
policy and protocol when they fielded questions in those training sessions. As a result,
information provided to MOST participants regarding headquarters notification and the time-
frames in which to make notifications conflicted with the Response Guidelines. Additionally,
some headquarters staff drew upon their prior field experience and referred to policies and
practices for responding to Volunteer sexual assault victims that are no longer current.




Final Report: Review of the Peace Corps’ Implementation of                                      28
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
The agency’s MOST training program is the primary opportunity to provide new PCMOs with
information on response, care and reporting requirements and to discuss the issues and
challenges involved with response to Volunteer victims of sexual assault before they take up
their work at posts. Outdated or incorrect information delivered in MOST sessions could result in
inconsistencies in a PCMO’s response to a Volunteer sexual assault incident or in how
headquarters staff provides support to them in the field. Headquarters staff members responsible
for response or support of Volunteer sexual assault incidents or for training or supporting first
responders would be better prepared to provide more consistent victim-centered care if they all
receive the Response Guidelines training annually.


                 We recommend:

                    8. That the agency provide annual Response Guidelines
                       training to all headquarters staff members responsible for
                       supporting victims or training staff in the response to
                       Volunteer sexual assault incidents.


     C. VOLUNTEER SEXUAL ASSAULT VICTIM SUPPORT

In order to determine if Volunteer sexual assault victims are effectively supported, we reviewed
the policy requirements for each post according to MS 270 “Volunteer/Trainee Safety and
Security,” as well as the instructions issued February 2011 in the Response Guidelines. We also
referred to the Peace Corps’ Commitment to Sexual Assault Victims as a basis to evaluate the
response and support provided to Volunteers. To assess post preparation to support Volunteer
crime victims, and sexual assault and rape victims in particular, we asked CDs and embassy
regional security officers to describe the support the post may receive from the U.S. embassy
regional security officer in the event of serious crimes committed against a Volunteer. The
Response Guidelines specify six actions that must be completed at every post to ensure it is
prepared to respond to a rape or major sexual assault:

     •   Identify a local attorney for consultation
     •   Complete the LES
     •   Develop useful contacts
     •   Determine whether the PC-supplied sexual assault exam kit can be used
     •   Train staff to respond to a rape or major sexual assault, and
     •   Train Volunteers on sexual assault risk reduction strategies. 21

As we previously reported, the Volunteer victims of rape and sexual assault we interviewed
whose incidents occurred between 2009 and 2011 were generally satisfied with the response and
support they received from the agency, but some OSA victims did not receive a consistent
21
  Volunteer safety and security training, including newly developed standardized training for Volunteers on sexual
assault awareness, risk reduction strategies, Peace Corps reporting and response protocols, and bystander
intervention mandated under the Kate Puzey Act will be the subject of a separate OIG review during Fiscal Year
2013.

Final Report: Review of the Peace Corps’ Implementation of                                                       29
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
response from staff. We found that some posts we visited would be better prepared to respond to
sexual assaults by completing or updating their LES, sharing this information with post staff
members who have a role in the response, and discussing any updates to the Peace Corps’ sexual
assault policy and protocol with the U. S. Embassy’s regional security officer. The agency could
also improve the effectiveness of its overall response effort, and provide performance feedback
to staff who respond to and support victims, through use of a standard case management database
for sexual assault incidents.

Posts’ preparation for legal or prosecutorial support to the Volunteer in the aftermath of a
sexual assault was incomplete.

The Peace Corps’ Commitment to Sexual Assault Victims states that the agency will help the
victim understand legal processes and options, and keep them informed of the progress of their
case should they decide to pursue prosecution. Some Volunteer victims who had previously
provided testimony and affidavits on their experience to the agency and OIG said that they were
not provided with sufficient information to help them with this decision, or to understand the
legal process that would take place should they decide to pursue prosecution.

The Standards encourage establishing written guidelines that outline resources and procedures
for providing information to victims on justice interventions, including information on current
laws, and appropriate resources.

The Response Guidelines stress that the CD, PCMO, and SSC must familiarize themselves with
local laws regarding the collection of evidence, because knowledge of the proper procedures to
follow when a sexual assault occurs is critical to the outcome of legal proceedings and to ensure
the rights of the victim are protected. The Response Guidelines state that CDs are to complete a
post-specific LES and to review this information before taking any response action. According to
the Response Guidelines, the LES is to be reviewed annually by the CD and updated as
necessary.

The LES is expected to contain specific information relative to the crime of rape or sexual
assault in the host country and detailed information on the legal process, filing a complaint in a
criminal case, the prosecution and court process, the rights of the suspect and victim, as well as
resources that may be of assistance during an investigation or prosecution. The Response
Guidelines instruct the CD to develop useful contacts with host country law enforcement
officers, senior officials in the judicial branch, and sexual assault examiners, and to identify an
attorney who can provide information about the local court system and be available for
emergency consultation before a crime incident occurs. Detailed information in the post's LES
helps ensure that staff accurately provide the Volunteer victim an overview of the legal process,
such as the steps involved in filing a police report and for pursuing a prosecution. Knowledge of
this information is critical to ensure mistakes which could jeopardize the Volunteer’s ability to
prosecute are not made. The information contained in the LES is also used to train staff and
Volunteers.

We interviewed CDs, PCMOs and SSCs and found that some of them were not fully familiar
with the information contained in their post’s LES. In particular, some staff members lacked


Final Report: Review of the Peace Corps’ Implementation of                                        30
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
sufficient knowledge regarding the host country’s legal processes or the process for collecting
forensic evidence. This has led to misinformation to victims regarding the local legal process, or
situations where PCMOs unfamiliar with the process for collecting forensic evidence initiated
this process incorrectly.

Five of the ten CDs we interviewed said they were not sufficiently knowledgeable of all local
laws related to a sexual assault and criminal prosecution of rape or sexual assault. One CD was
unfamiliar with the next steps in legal proceedings after a police report is filed. Other staff
members we interviewed described gaps in their knowledge of the post's LES. An SSC indicated
that he was not sufficiently familiar with the legal process when a Volunteer victim decides to
pursue prosecution. Another SSC reported that the LES was not frequently referred to at his post
because no Volunteer rape victims had decided to pursue prosecution since his hiring in 2005.
We found that two PCMOs had performed forensic examinations which did not conform with
host country laws. In both cases their LES indicated that, for evidence to be admissible in court,
a host country medical doctor must perform the forensic exam. We found that the lack of staff
familiarity with local laws related to sexual assault crimes and their prosecution was attributable
to either inattention to regular updating of the post's LES or to insufficient knowledge of its
contents.

Although the Response Guidelines instruct CDs to complete an LES and update it at least
annually, the agency has not established a policy requirement regarding its completion or for the
systematic oversight or review of its contents for completeness. The Response Guidelines
instruct CDs who do not have a completed LES for their post to schedule a visit with their
regional PCSSO to assist with completing one as soon as possible, and it instructs PCSSOs to
complete the survey. According to senior staff members we spoke with, it is up to posts to ensure
they have accurate, complete legal environment information.

Frequent monitoring and updates to the LES to incorporate changes to local laws, and a good
base of knowledge for reporting, investigating, and prosecuting sexual assault crimes would help
ensure a well-coordinated response with local authorities and the best outcomes for Volunteer
victims who choose to pursue legal proceedings. We wish to note that those CDs who reported
during our interviews that they were not fully familiar with the local legal environment indicated
that they planned to perform additional work to complete the LES and to review all the
information in it.


                 We recommend:

                   9. That the agency establish policy to require that post staff
                      who have response roles annually review the “Survey of the
                      Local Legal Environment” (LES) to familiarize themselves
                      with information contained in the LES and to determine if
                      updates are required.

                   10. That the agency review all posts’ “Survey of the Local
                       Legal Environment” to ensure information has been fully
                       and accurately collected.

Final Report: Review of the Peace Corps’ Implementation of                                       31
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
CDs were not well-informed of Department of State support and resources to be applied when
crimes against Volunteers occur.

According to the Standards, “whenever possible, written protocols and interagency agreements
are to be established” for coordinated responses to sexual assault incidents. The Standards
recommend that definitions of roles and relationships, communication protocols, and the
provision of support be formalized by interagency agreement. Some of the Volunteer victims
providing testimony to Congress or written statements regarding the agency’s response to their
sexual assaults did not feel that the agency had responded quickly, professionally, and to the
fullest extent possible. Formal agreements or memoranda of understanding (MOU) that bring
additional resources to the response effort, particularly for investigative activities or legal
proceedings, would positively impact the handling of the sexual assault crime incident.

The need for formal documentation between the agency and the Department of State (DS) to
clarify roles and responsibilities when crimes are committed against Volunteers has been cited
by OIG in a 2010 audit report recommendation 22 and in 2011 testimony to Congress 23 as an
important element to ensure that a thorough response effort is carried out. OIG has underscored
that such an agreement would be a critical step towards improving the agency’s overall capacity
to effectively respond to Volunteer security situations. The Kate Puzey Act required that the
Peace Corps consult with DS and enter into an MOU that specifies the duties and obligations of
the Peace Corps and the DS Bureau of Diplomatic Security with respect to the protection of
Volunteers and staff members, including investigations of safety and security incidents and
crimes committed against Volunteers and staff.

On May 11, 2012, the agency entered into an MOU with the DS Bureau of Diplomatic Security.
The MOU sets out the understanding of the parties regarding:

     •   Physical, technical and procedural support by DS for the security of Peace Corps
         operations abroad.
     •   DS support in responding to crimes against Peace Corps Volunteers.
     •   Personnel security investigations of Peace Corps staff by DS.
     •   Training services provided by DS to Peace Corps staff and Volunteers.
     •   Funding and reimbursement for services provided to the Peace Corps by DS.

Prior to the establishment of the MOU, support and assistance from U.S. Embassies had been
provided to Peace Corps posts on a case-by-case basis as requested by the post or headquarters
personnel. We found that the Peace Corps' and embassy staff members' awareness of the types of
support that may be requested or provided in response to crimes against Volunteers was
inconsistent at many of the posts we visited.

In February 2009 the DS transmitted Cable 12291 entitled “PC-Diplomatic Security Response to
Crimes against PCVs” to all U.S. diplomatic, consular and Peace Corps posts. The cable
contained guidance regarding “inter-agency activities related to crimes against Volunteers
22
  OIG, Peace Corps Volunteer Safety and Security Program.
23
  Kathy A. Buller, Inspector General, Peace Corps, “Peace Corps at 50,” testimony to Committee on House Foreign
Affairs, May 11, 2011.

Final Report: Review of the Peace Corps’ Implementation of                                                   32
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
overseas” and defined the relationship between the U.S. Embassy’s regional security officer and
the CD in the event of serious crimes committed against Volunteers. The cable advised posts and
embassies that “Peace Corps will notify the RSO of any assistance that is being requested, with
the understanding that the RSO and embassy determine the scope and extent of RSO
involvement and activity in the matter.” The cable was made available to Peace Corps posts on
the agency’s SS office website in its “Protocols” section. Until establishment of the Peace Corps-
DS MOU in May 2012, Cable 12291 had been the only formal DS-Peace Corps communication
available to posts and embassies describing the type of support a U.S. Embassy may provide to a
Peace Corps post in response to a Volunteer crime incident.

The Response Guidelines also inform posts that “Depending on the circumstances, the local U.S
Embassy—and in particular the Regional Security Officer—may be able to provide significant
assistance.” The Response Guidelines instruct CDs to notify the U.S. Embassy regional security
officer of a rape or major sexual assault immediately if the assault occurred within the last five
days, and no later than the next business day if it occurred more than five days prior to reporting
by the victim.

The Response Guidelines list the types of support the U.S. Embassy’s regional security office
may provide:
    •   Accompany local law enforcement officials during the investigation and provide guidance when
        appropriate
    •   Express the U.S. Government’s interest in seeing the investigation conducted in an objective and timely
        manner
    •   Update the Peace Corps concerning the progress of the investigation, collection and processing of physical
        evidence
    •   Recommend appropriate points of contact within the host country law enforcement community
    •   Facilitate access to/obtain copies of host country law enforcement reports or documents related to a
        Volunteer rape or major sexual assault case
    •   Facilitate the transfer of evidence from host country law enforcement to the Federal Bureau of Investigation
        when appropriate

We found through our interviews that CDs and U.S Embassy RSOs were generally unfamiliar
with DS Cable 12291. Seven of 11 CDs and five of eight RSOs reported they were not familiar
with the specific information contained in cable 12291 outlining the services and support
available from the embassy regional security officer. Only four of eight RSOs we interviewed
confirmed that CDs had discussed the Response Guidelines or the post’s LES with them since
the Response Guidelines were issued in February 2011.

The Response Guidelines, the Commitment statement, and the other revisions to agency sexual
assault policy and protocols are important steps in the agency’s response to Volunteer victims of
sexual assault. In order to ensure that all available resources are quickly and fully directed to the
response effort, CDs will need to ensure that U.S. Embassy RSOs are aware of the resources and
assistance that may be requested in the aftermath of a Volunteer sexual assault. CDs will need to
discuss and update RSOs or other embassy officials on changes to the Peace Corps' sexual
assault policy and protocol such as the Peace Corps-DS MOU. It will also be important to clarify
the working relationship between the post and the embassy on a periodic basis as Peace Corps or
embassy personnel are reassigned or other changes occur.

Final Report: Review of the Peace Corps’ Implementation of                                                       33
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
                 We recommend:

                   11. That country directors provide the U.S. Embassy’s regional
                       security officer with a copy of the “Survey of the Local
                       Legal Environment” and meet to review the support
                       services that may be provided under the Peace Corps-
                       Department of State Memorandum of Understanding in an
                       initial meeting and when new country directors or regional
                       security officers arrive at post.


The agency lacked a centralized case management system to verify sexual assault response
requirements have been fulfilled, assess performance, and provide feedback to responders to
make process improvements.

In May 2011 congressional testimony Volunteer victims expressed concerns regarding staff
accountability and a lack of oversight of the response to their sexual assault. Victims testified
they did not receive the support they expected to receive from the Peace Corps and that
improvements were not made after they complained about the quality of response and care. In
our interviews with Volunteer victims, some did not feel fully informed of action taken in
response to their assault, or they expressed confusion about the response effort because staff
provided support services without coordinating their communication to victims.

The Standards recommends procedures for documenting services, carrying out regular sexual
assault response program evaluation and providing performance feedback to responsible staff.
These activities help managers and responders to assess victim needs, ensure quality of care, and
identify areas for improvement. A performance assessment process and performance feedback
activities must be based on a response system that has the capacity to routinely assess
performance, communicate about performance to responders, and make adjustments to enhance
the quality of service delivery.

Using information from our interviews and our review of agency records, we analyzed the
management of individual Volunteer sexual assault cases and the performance feedback agency
managers provided to headquarters and field staff. We identified a need to standardize and
centralize case management files and to standardize the assessment and staff performance
feedback process.

Case Management

We found the agency lacks a centralized case management system to record and track the
response and care provided for individual Volunteer sexual assault cases. Communication among
post staff and among multiple headquarters offices occurred in-person, by phone, via email and
other electronic transmittals, but were not systematically recorded and maintained in a single
case management file. The victim advocate, OMS, COU, and SS all maintained separate
databases for tracking the progress of advocacy services, medical and counseling support, and
the safety and legal support provided. The manner in which post staff submitted requests for


Final Report: Review of the Peace Corps’ Implementation of                                          34
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
support and status updates was informal and this information was not consistently noted in all the
individual databases listed above.

Field and headquarters staff reported difficulties coordinating their efforts with other staff
members and offices. This has been exacerbated by situations, discussed elsewhere in the report,
in which communication protocols, roles and responsibilities of staff members and the offices
involved, and decision-making authority were unclear. As a result, some Volunteer victims
experienced delays in receiving support, staff could not easily confirm that a Volunteer victim
had received services, or multiple staff members initiated the same service to the victim. Some
field staff members we interviewed said they needed a better way to track care and support
provided to victims to ensure nothing was overlooked and to keep everyone informed.
Individual tracking systems are inefficient, create the potential for confusion among the multiple
offices involved, and fail to capture in a centralized database the key steps and decisions made in
the response effort. A centralized case management system helps identify gaps or duplication in
service delivery or Volunteer victim needs that have gone unfulfilled. A centralized system
would help document all aspects of the agency response and verify that the agency’s
Commitment to Sexual Assault Victims had been adhered to throughout the response effort.

With the multiple staff members and offices involved in the response effort, a case management
system available to headquarters staff, the CD and other key post staff members is particularly
important to ensure involvement of all the responsible parties and decision-makers. For example,
a determination regarding a victim’s continued service at their work site or country of service
often necessitates input from post, region, and headquarters staff. Decisions made by victims
regarding their interest or intent to pursue prosecution or their need for services can be
documented and made available to concerned offices. A single, centralized case record will also
help ensure that personally identifiable or medically sensitive information is controlled yet
available to those with a need to know.

Performance Feedback

The Standards underscore the importance of providing objective feedback on performance to
response and care providers and encourages the use of client satisfaction surveys and a
mechanism for victims to lodge complaints to assess and enhance quality of service delivery.
Performance feedback should focus on whether requirements in the Response Guidelines had
been completed and whether Volunteer victims are responded to and cared for according to the
Peace Corps’ Commitment to Sexual Assault Victims.

We identified aspects of staff performance that require feedback and accountability so that the
response and care effort conforms to agency policy, LES requirements, and the Commitment
made to victims. Feedback would address response efforts in which:

    •   CDs placed the victim on a performance plan (i.e. behavioral contract) shortly after
        reporting a sexual assault;
    •   PCMOs performed sexual assault examinations that did not conform to the LES-required
        process for that country; and



Final Report: Review of the Peace Corps’ Implementation of                                        35
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
    •   CDs and PCMOs did not immediately notify headquarters duty officers regarding sexual
        assault incidents reported by Volunteers or adhere to other notification protocols required
        by the Response Guidelines.

According to MS 270, the regional director is responsible for ensuring that CDs in their region
establish and effectively manage post Volunteer safety and security support systems. The
regional directors provide the oversight to ensure that posts in their region take the necessary
corrective actions to address safety and security issues identified during assessments and
evaluations. SS provides technical assistance to CDs and oversight of the post’s SSC duties.
According to MS 261 “Oversight of Medical Offices and Peace Corps Medical Officers,” PCMO
performance feedback is the shared responsibility of the Associate Director for Volunteer
Support and the CD.

In our interviews with staff we were provided with examples of feedback that SS or regional
senior staff provided to headquarters and field staff on a case-by-case basis. However, a
centralized case management system would allow for a systematic review of individual
Volunteer sexual assault incident response efforts, so that regular performance feedback is
delivered and any necessary steps are taken to correct deficiencies or problem responses.


                 We recommend:

                   12. That the agency implement a centralized sexual assault
                       case management system that encompasses Volunteer
                       sexual assault response, care, and support activities, and
                       use the case management system to assess staff
                       performance and identify any needed adjustments in its
                       policies and procedures.




Final Report: Review of the Peace Corps’ Implementation of                                       36
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
                   OBJECTIVE, SCOPE, AND METHODOLOGY
The purpose of the Office of Inspector General (OIG) is to prevent and detect fraud, waste,
abuse, and mismanagement and to promote economy, effectiveness, and efficiency in
government. In February 1989, the Peace Corps OIG was established under the Inspector
General Act of 1978 and is an independent entity within the Peace Corps. The Inspector General
(IG) is under the general supervision of the Peace Corps Director and reports both to the Director
and Congress.

The OIG Evaluation Unit evaluates the management and program operations of the Peace Corps
at overseas posts and domestic offices through independent assessments of the design,
implementation, and results of agency operations, programs, and policies. OIG evaluations
identify best practices and recommend program improvements and ways to achieve agency
mission and goals, and increase effectiveness and efficiency.

OIG announced its intent to conduct a review of the agency’s implementation of guidelines and
protocols related to Volunteer victims of sexual assault on February 1, 2011. The purpose of the
review was to examine guidelines and practices, to make recommendations as necessary to
improve support to Volunteer victims of sexual assault, and to identify best practices that we
observed at selected posts. The scope for our examination of sexual assault cases was calendar
years 2009 through 2011. We used the following researchable questions to guide our work:

             1. Is the agency’s guidance for responding to Volunteer victims of sexual assault
                sufficient to meet victim needs?
             2. Is the agency’s sexual assault training for staff sufficient to prepare them to
                respond to victims?
             3. Are Volunteer victims sufficiently supported at select posts?
             4. How does the agency’s response to and care of sexual assault victims compare to
                other organizations and to the standards recommended by subject matter experts?

Assistant Inspector General for Evaluations Jim O’Keefe and Senior Evaluator April Miller
conducted the evaluation's preliminary research and fieldwork from February 1 to November 30,
2011. Additional fieldwork was conducted by OIG evaluation unit staff during the course of
country program evaluation work conducted during 2011. To understand current guidance for
response to Volunteer sexual assault, we reviewed agency policies and documented practices.
We reviewed the Peace Corps’ Guidelines for Responding to Rape and Major Sexual Assault, the
Peace Corps’ Commitment to Sexual Assault Victims, and relevant Peace Corps Manual policies
and Office of Medical Services technical guidelines for response to Volunteer sexual assaults.
We interviewed headquarters and field staff at Peace Corps posts with responsibilities for
response and support to Volunteer victims. We conducted a limited review of standards and best
practices in the field of sexual assault prevention and response. We compared select
organizations’ standards and best practices with the Peace Corps’ current guidance and practices.
We interviewed subject matter experts to learn about their perspectives on the agency’s approach
to response to and care of Volunteer sexual assault.



Final Report: Review of the Peace Corps’ Implementation of                                      37
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
Fieldwork at selected Peace Corps posts occurred from February 22 to October 7, 2011. We
selected four posts for a focused field review: PC/Dominican Republic, PC/Guatemala, PC/Mali,
and PC/Moldova. We interviewed 17 Volunteer victims at these four posts who had reported
they were sexually assaulted (five additional victim interviews were conducted by telephone or
in person in Washington, DC). OIG evaluation staff performed additional limited fieldwork in:
PC/China, PC/Fiji, PC/Kazakhstan, PC/Kyrgyz Republic, PC/Liberia, PC/Peru, and PC/Uganda.
We interviewed CDs, PCMOs, SSCs, programming and training staff, and embassy RSOs at 15
Peace Corps posts regarding their sexual assault response and care practices and training.

To assess the agency’s implementation of guidelines and protocols related to Volunteer victims
of sexual assault, we reviewed the guidance disseminated by the agency for response to
Volunteer sexual assault and the related staff training to support that response. We evaluated the
agency response to selected sexual assault incidents reported from 2009 to 2011. While we
considered all the issues and information brought to our attention by victims of sexual assault
whose assaults dated back several decades or more, we established the more recent 2009-2011
timeframe for our review in order to examine the agency’s response preparedness and
capabilities in a contemporary timeframe and to review action taken to support victims in
relation to policies, protocols and guidelines.

We examined the written statements of 42 sexual assault victims whose assaults occurred from
the 1970s to 2011. We reviewed reports received from sexual assault victims via our OIG
Hotline and other sources. Written statements submitted to OIG describing assaults that occurred
before 2009 provided perspectives on agency response and care to victims. However, we were
not able to verify statements made or determine the quality of the agency’s response and support
provided to those victims. It is also important to note that policies and protocols related to
Volunteer sexual assault were issued or updated by the agency during 2009 to 2011, which
created limitations in establishing direct correlation between the quality of services provided and
agency policies.

To determine if agency guidance for responding to sexual assaults is sufficient and to gather
feedback on agency’s handling of Volunteer sexual assaults using the 2011 Response Guidelines,
we interviewed field staff and sexual assault victims who are current or former Volunteers. We
compared current policy and guidance to former policy and guidance to understand how the
Peace Corps handled sexual assault response or care differently over time.

To assess the sufficiency of training to prepare staff to respond to Volunteer sexual assault, we
reviewed staff training curriculum and interviewed staff members responsible for designing and
providing the training. We observed sexual assault awareness and response training provided to
overseas staff during 2011. At headquarters, we observed the September 2011 Overseas Staff
Training program provided to new country directors, administrative officers, and programming
staff, and the October 2011 Medical Overseas Staff Training program provided to new medical
officers. We observed Continued Education Training of Peace Corps medical officers conducted
in Orlando, Florida, in August 2011. We also observed a safety and security training of country
directors and safety and security and training staff in Bamako, Mali in September 2011. We
compared our observation of staff trainings with the 2011 Response Guidelines and with the
training curriculum. We interviewed field staff and current and former Volunteer victims to help


Final Report: Review of the Peace Corps’ Implementation of                                       38
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
understand whether staff trainings sufficiently prepared staff to respond to Volunteer sexual
assaults that occurred in 2011.

To determine if Volunteers have received sufficient support as a result of the 2011 Response
Guidelines and other agency efforts in 2011, we selected and evaluated sexual assault cases
reported by Volunteers from 2009 to 2011. We conducted voluntary interviews with Volunteer
sexual assault victims and reviewed written testimonies, sexual assault incident reports, medical
files and other information related to selected incidents. We conducted interviews of victims and
headquarters and field staff members involved in the handling of sexual assault incidents during
this period to assess the usefulness of the new guidance for handling sexual assaults and staff
members’ first response and follow-up care for Volunteer victims. We received additional
reports from Volunteers who were sexually assaulted during their service prior to 2009 via our
OIG Hotline and other sources. We compared feedback provided by Volunteer victims of sexual
assault that described the first response and follow-up care they received prior to 2009 with
feedback provided by Volunteers from 2009 to 2011.

This review did not evaluate Volunteer training. We did not assess the causes of Volunteer
underreporting of sexual assault. We did not evaluate services available to Volunteers after their
service ended, such as the Federal Employees’ Compensation Act application process or benefits
made available for Volunteer sexual assault victims. We conducted a limited review of reported
allegations of Volunteer sexual assault in which a Volunteer or staff member was the alleged
perpetrator.

This evaluation was conducted in accordance with the Quality Standards for Inspections, issued
by the Council of the Inspectors General on Integrity and Efficiency (CIGIE). The evidence,
findings, and recommendations provided in this report have been reviewed by agency
stakeholders affected by this review.




Final Report: Review of the Peace Corps’ Implementation of                                      39
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
                                        INTERVIEWS CONDUCTED
Interviews were conducted with 22 Volunteer sexual assault victims, 95 staff members serving at
Peace Corps posts, 30 headquarters staff members serving in Washington D.C., 11 U.S. Embassy
staff members, and nine subject matter experts.

We interviewed 17 Volunteer sexual assault victims who reported they were sexually assaulted
between 2009 and 2011. Thirteen interviews were conducted in-person, and four by telephone. In
addition, we interviewed five female RPCVs who were sexually assaulted prior to 2009. 24

               Table 5: Interviews of Volunteers Sexually Assaulted from 2009 to 2011
                    Type of Sexual Assault                   Count
                Rape/attempted rape                             6
                Major Sexual Assault                            1
                Other Sexual Assault                           10
                                   Gender
                  Female                                                  15
                  Male                                                     2

                Source: OIG analysis.


     Table 6: Interviews Conducted with Peace Corps Overseas Staff Members and Embassy
                                           Officials
                               Position                                                Status
     Country Director (11)                                             Overseas Posts 25
     Peace Corps Medical Officer (28)                                  Overseas Posts
     Safety and Security Coordinator (12)                              Overseas Posts
     Director of Programming and Training (6)                          Overseas Posts
     Training Director (4)                                             Overseas Posts
     Associate Peace Corps Director/Program Manager (17)               Overseas Posts
     Volunteer Support Coordinator                                     Overseas Posts
     Program Assistant (2)                                             Overseas Posts
     Regional Manager (3)                                              Overseas Posts
     General Services Manager                                          Overseas Posts
     Regional Security Officer (11)                                    U.S. Embassies 26
     Peace Corps Safety and Security Officer (10)                      Overseas Posts
       Data as of February 2012.




24
   Two of these interviewees also testified in congressional hearings conducted during 2011.
25
   We conducted interviews with field staff serving in posts in the following countries: Benin, China, Costa Rica,
Dominican Republic, Guatemala, Honduras, Fiji, Kazakhstan, Kyrgyzstan, Kenya, Liberia, Mali, Moldova, Peru,
and Uganda.
26
   RSO interviews were conducted at U.S. Embassies in China, Dominican Republic, Guatemala, Fiji, Kazakhstan,
Kyrgyzstan, Liberia, Mali, Moldova, Peru, and Uganda.

Final Report: Review of the Peace Corps’ Implementation of                                                       40
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
                    Table 7: Interviews Conducted with PC/Headquarters Staff and
                                        Subject Matter Experts
                            Position                                         Office/Organization
      Peace Corps Victim Advocate/Director, Office of             Office of Victim Advocacy
      Victim Advocacy
      Senior Advisor/Sexual Assault Working Group                 Office of Safety and Security
      Coordinator
      Deputy Director of Counseling and Outreach                  Counseling and Outreach Unit
      Counselor (2)                                               Counseling and Outreach Unit
      Psychologist                                                Counseling and Outreach Unit
      Inspector General                                           Office of Inspector General
      Deputy Inspector General                                    Office of Inspector General
      Assistant Inspector General, Investigations                 Office of Inspector General
      Criminal Investigators (3)                                  Office of Inspector General
      General Counsel                                             Office of General Counsel
      Deputy Associate Director                                   Office of Volunteer Support
      Chief, Epidemiology and Surveillance                        Office of Medical Services
      Quality Improvement Manager                                 Office of Medical Services
      Quality Improvement Nurse                                   Office of Medical Services
      Post-Service Manager                                        Office of Medical Services
      Programming and Training Expert                             Office of Medical Services
      Pre-Service Nurse                                           Office of Medical Services
      Associate Director                                          Office of Safety and Security
      Chief, Overseas Operations                                  Office of Safety and Security
      Lead Security Specialist, Overseas Operations               Office of Safety and Security
      Regional Director                                           Inter-America and the Pacific Operations
                                                                  (IAP Region)
      Regional Security Advisor                                   IAP Region
      Expert                                                      Office of the Director
      Regional Director                                           Europe, Mediterranean, and Asia
                                                                  Operations (EMA Region)
      Regional Security Advisor                                   EMA Region
      Regional Director                                           Africa Operations (AF Region)
      Regional Security Advisor                                   AF Region
      Attorney (3)                                                WilmerHale
      Founder                                                     First Response Action
      Program Manager                                             Colorado Coalition Against Sexual Assault
      Program Coordinator, Victim Services Network                Denver District Attorney’s Office
      Hotline and Affiliate Service Director                      Rape, Abuse and Incest National Network
      Senior Victim and Response Office Assistance                Department of Defense Sexual Assault and
          Advisor                                                 Response Office
      Training Director 27                                        DC Coalition Against Domestic Violence



27
     Also testified in congressional hearings conducted during 2011.

Final Report: Review of the Peace Corps’ Implementation of                                                    41
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
                              LIST OF RECOMMENDATIONS
W E RECOMMEND:

1. That posts conduct annual “all staff” sexual assault training sessions and periodic first
   responder refresher sessions to ensure all post staff are fully informed of the agency’s sexual
   assault response policies and understand the response and care protocols.

2. That the agency develop sexual assault policy and guidance for other sexual assault (OSA)
   incidents including procedures for taking reports and responding to the care or support needs
   of OSA victims, and that it incorporate this guidance into its Response Guidelines.
3. That the agency incorporate the following topics into its Response Guidelines and staff
   training modules: the role of the victim advocate, the role of the safety and security
   coordinator, and the role of the Office of Inspector General for investigating Volunteer
   sexual assault.

4. That the agency clarify notification requirements and align instructions in the Response
   Guidelines and Medical Technical Guideline 540 to ensure clear and specific instructions for
   notification of headquarters offices in the aftermath of a Volunteer rape or sexual assault.

5. That the agency ensure that all country directors, Peace Corps medical officers and staff with
   a sexual assault response and care role attend annual Response Guidelines training sessions,
   and that staff participation in training be tracked and documented.

6. That the agency provide Volunteer sexual assault response training for staff members who
   will serve as acting country director, and include the duties for managing sexual assault
   response in overseas staff training modules.

7. That, for those staff who will serve as acting country director, the agency include the duties
   and responsibilities for managing Volunteer sexual assault response in position descriptions
   and performance plans.

8. That the agency provide annual Response Guidelines training to all headquarters staff
   members responsible for supporting victims or training staff in the response to Volunteer
   sexual assault incidents.

9. That the agency establish policy to require that post staff who have response roles annually
   review the “Survey of the Local Legal Environment” (LES) to familiarize themselves with
   information contained in the LES and to determine if updates are required.

10. That the agency review all posts’ “Survey of the Local Legal Environment” to ensure
    information has been fully and accurately collected.

11. That country directors provide the U.S. Embassy’s regional security officer with a copy of the
    “Survey of the Local Legal Environment” and meet to review the support services that may be


Final Report: Review of the Peace Corps’ Implementation of                                           42
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
    provided under the Peace Corps-Department of State Memorandum of Understanding in an initial
    meeting and when new country directors or regional security officers arrive at post.

12. That the agency implement a centralized sexual assault case management system that
    encompasses Volunteer sexual assault response, care, and support activities, and use the case
    management system to assess staff performance and identify any needed adjustments in its
    policies and procedures.




Final Report: Review of the Peace Corps’ Implementation of                                     43
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
Appendix A: List of Acronyms


                                      LIST OF ACRONYMS
 CD                           Country Director
 CIRS                         Consolidated Incident Reporting System
 CME                          Continuing Medical Education
 COU                          Counseling and Outreach Unit
 DMO                          Director of Management Operations
 DPT                          Director of Programming and Training
 DS                           Department of State
 IG                           Inspector General
 LES                          Survey of the Local Legal Environment
 MOST                         Medical Overseas Staff Training
 MOU                          Memorandum of Understanding
 MS                           Peace Corps Manual Section
 OGC                          Office of General Counsel
 OGO                          Office of Global Operations
 OIG                          Office of Inspector General
 OMS                          Office of Medical Services
 OSA                          Other Sexual Assault
 OST                          Overseas Staff Training
 PC                           Peace Corps
 PCM                          Peace Corps Manual
 PCMO                         Peace Corps Medical Officer
 PCSSO                        Peace Corps Safety and Security Officer
 PSC                          Personal Services Contractor
 RPCV                         Returned Peace Corps Volunteer
 RSO                          Regional Security Advisor
 SAWG                         Sexual Assault Working Group
 SS                           Office of Safety and Security
 SSC                          Safety and Security Coordinator
 TG                           Medical Technical Guideline
 V/T                          Volunteer/Trainee
 VS                           Office of Volunteer Support




Final Report: Review of the Peace Corps’ Implementation of              44
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
Appendix B: Kate Puzey Act


                  KATE PUZEY PEACE CORPS VOLUNTEER
                  PROTECTION ACT OF 2011 (P.L. 112-57) 28
On November 21, 2011, the President signed into law the Kate Puzey Peace Corps Volunteer
Protection Act of 2011(P.L. 112-57, Kate Puzey Act), which enhances Volunteer safety and
security and the Peace Corps’ response to Volunteer victims of sexual assault. The legislation
will necessitate numerous improvements and changes to existing agency policies, processes, and
training, as well as office functions and responsibilities. The Kate Puzey Act focuses on
enhancing Volunteer safety and security and the agency’s response to Volunteer sexual assault.
Additional elements addressed include agency hiring practices, management oversight,
performance reporting, country portfolio reviews, and strengthening of OIG independence.

Under the new legislation, OIG is required to issue to Congress: (1) a report no later than
November 21, 2013, and November 21, 2016, respectively, which evaluates the effectiveness
and implementation of the agency’s sexual assault risk-reduction and response training and
policy, including a review of sexual assault cases; (2) a report no later than November 21, 2013,
regarding how the agency hires/terminates its CDs, including an assessment of the
implementation of CD performance plans, and how CDs hire post staff; and (3) a report on
allegations received from Volunteers relating to misconduct, mismanagement, or policy
violations of Peace Corps staff, any breaches of the confidentiality of Volunteers, and any
actions taken to assure the safety of Volunteers who provide such reports. This report is due no
later than November 21, 2012, and every two years through September 30, 2018. Another
provision of the legislation strengthens OIG independence by excluding the IG and OIG
employees from the agency’s five-year term employment limitation.

The majority of the provisions in the Kate Puzey Act affect agency programs and operations. The
legislation includes requirements to:

     •   Develop and implement a comprehensive sexual assault policy and a policy on stalking.
     •   Develop and implement sexual assault risk reduction and response training for
         Volunteers and staff.
     •   Develop a restricted reporting process for sexual assault victims.
     •   Establish an Office of Victims Advocacy and a Sexual Assault Advisory Council
     •   Establish a 24 hour sexual assault hotline.
     •   Provide Volunteer applicants with crime risk information and contact information for
         OIG and Victim Advocate.
     •   Establish a confidentiality policy applicable to both staff and Volunteers with penalties
         for breaches of the policy.
     •   Establish goals, metrics, monitoring, and evaluation standards for all agency programs.
     •   Conduct an annual volunteer survey.



28
  Appendix B reflects information reported in the Peace Corps OIG Semiannual Report to Congress, October 1,
2011–March 31, 2012.

Final Report: Review of the Peace Corps’ Implementation of                                                    45
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
Appendix B: Kate Puzey Act


    •   Establish performance plans with performance elements for CDs which must incorporate
        feedback from the all-volunteer survey.
    •   Conduct portfolio reviews (once every three years) for all countries where Volunteers
        serve.
    •   Establish a process for removal of Volunteers from alleged unsafe sites.
    •   Establish a memorandum of understanding (MOU) with the United States Department of
        State outlining duties and obligations for protection of Volunteers and staff.
    •   Submit an annual report to Congress that includes summarized information on sexual
        assaults, other crimes against Volunteers, number of arrests, prosecutions, incarcerations,
        and early terminations.
    •   Authorize the agency to retain counsel for Volunteers involved as parties, victims, or
        witnesses to crimes.
    •   Repeals limitations on personal services contractors (PSC) hired by the agency to
        perform inherently governmental activities.

The agency has established an interagency working group, which includes more than a dozen
sub-groups responsible for implementing the new legislation. The agency has established the
Office of Victim Advocacy. During 2011 the agency developed four standardized Volunteer
training modules. The agency reports that over 200 overseas staff members were trained on how
to deliver newly developed standardized training to Volunteers on sexual assault awareness, risk
reduction strategies, Peace Corps reporting and response protocols, and bystander intervention.
The agency hired a sexual assault nurse examiner to coordinate care for victims of sexual assault
and has established a medical support program that assists Volunteers who are medically
evacuated as a result of sexual crimes. In collaboration with the Department of Justice National
Institute of Justice, the agency created a framework, performance measures, and timeline to
launch its sexual assault risk reduction and response program. The agency also indicates it has
begun tracking arrests, prosecutions, and incarcerations involving Volunteer incidents in its
existing reporting system.

It is too early to assess the efficacy of agency actions to date or whether these measures comply
with the requirements under the Kate Puzey Act.

OIG provided recommendations and suggestions to the agency regarding the development and
execution of an MOU with DS Bureau of Diplomatic Security addressing the protection of
overseas Volunteers and staff members to include investigations of safety and security incidents
and crimes committed against Volunteers and staff members. The establishment of an MOU was
recommended in the 2010 OIG audit of the Peace Corps Volunteer Safety and Security Program.
Since passage of the Kate Puzey legislation, OIG directly participated in negotiations leading to
development of the MOU signed on May 11, 2012, with DS. Volunteers are not under chief of
mission authority and are not considered employees; therefore, our recommendations focused on
ensuring the MOU addresses Volunteer safety and security so that the Peace Corps is able to
support a Volunteer should a serious crime or other incident take place. Throughout the
negotiations, OIG suggested the MOU define roles and responsibilities to the greatest extent
possible when responding to serious crimes or incidents against Volunteers and staff members.




Final Report: Review of the Peace Corps’ Implementation of                                       46
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
Appendix C: Agency Response



                                      AGENCY RESPONSE




Final Report: Review of the Peace Corps’ Implementation of           47
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
Appendix C: Agency Response




Final Report: Review of the Peace Corps’ Implementation of           48
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
Appendix C: Agency Response




Final Report: Review of the Peace Corps’ Implementation of           49
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
Appendix C: Agency Response




Final Report: Review of the Peace Corps’ Implementation of           50
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
Appendix C: Agency Response




Final Report: Review of the Peace Corps’ Implementation of           51
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
Appendix C: Agency Response




Final Report: Review of the Peace Corps’ Implementation of           52
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
Appendix C: Agency Response




Final Report: Review of the Peace Corps’ Implementation of           53
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
Appendix D: OIG Comments



                                         OIG COMMENTS

Management concurred with all 12 recommendations. In its response, management described
actions it intends to take to address the issues that prompted each of our recommendations. All
12 recommendations remain open. OIG will review and consider closing recommendations when
the documentation reflected in the agency’s response to the preliminary report is received.

In closing recommendations we are not certifying that the agency has taken these actions or that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. If we determine it is warranted, we may conduct a follow-up
review to confirm that action has been taken and to evaluate the impact.

We provide the following analysis of the agency’s response to recommendations 2 and 6.

Recommendation 2:
That the agency develop sexual assault policy and guidance for other sexual assault (OSA)
incidents including procedures for taking reports and responding to the care or support
needs of OSA victims, and that it incorporate this guidance into its Response Guidelines.

Agency Response: Concur:
The Office of Safety and Security will develop guidelines for post to address crimes which fall in
the category of other sexual assault (OSA) by February 2013.

Documents to be Submitted:
OSA Guidelines — February 2013

Completion Date:
February 2013

OIG analysis:
In its response the agency indicted that the Office of Safety and Security will develop guidelines
for post to address crimes which fall in the category of other sexual assault (OSA) by February
2013. Please clarify when the OSA Guidelines will be distributed to posts. Per your response to
recommendation 1, we take note of the agency’s plans and schedule to re-issue updated
Guidelines for Responding to Rape and Sexual Assault by May 2013 and to require posts to
complete training on the updated Guidelines by August 2013. We believe it is important for the
agency to transmit the OSA Guidelines to all posts when they are developed in February 2013 so
posts respond to OSA incidents according to the newly developed procedures as soon as
possible.

We request your response within 30 days from issuance of the final report.




Final Report: Review of the Peace Corps’ Implementation of                                      54
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
Appendix D: OIG Comments


Recommendation 6:
That the agency provide Volunteer sexual assault response training for staff members who
will serve as acting country director, and include the duties for managing sexual assault
response in overseas staff training modules.

Agency Response: Concur:
Office of Safety and Security, in cooperation with Overseas Program and Training Support
(OPATS), provides sexual assault training during Overseas Staff Training (OST) for all new
incoming staff members, including Country Directors and staff likely to be assigned Acting
Country Director duties. This training is conducted two to three times each year for new Country
Directors, Directors of Programming and Training, Directors of Management and Operations and
any other American Associate Peace Corps Director since these are the staff who would be
authorized to serve in the acting capacity in the absence of the Country Director. Locally
employed staff who participate in OST will also receive the same sexual assault response
training. OPATS will track participation and report attendance at the session to the Office of
Safety and Security.

Documents to be Submitted:
OST Training schedule for February 2013

Status and Timeline for Completion:
Office of Safety and Security began providing the Response training for all OST participants
June 19, 2012. This action is ongoing; future dates for training determined by OST dates will be
posted on Peace Corps intranet.

OIG analysis:
Along with the Response training that has been offered OST participants beginning in June 2012,
we believe all OST participants who may serve as acting country director, including participants
in the October 2012 OST, need training sessions that thoroughly review their duties and
responsibilities relative to response to Volunteer sexual assault.

Please provide OIG with information and training materials used with staff attending the October
2012 OST that demonstrates they received training sessions and appropriate materials relative to
responsibilities for response to Volunteer sexual assault while acting as country director. Should
additional training materials be developed for the February 2013 OST, we welcome those by the
above-stated deadline of February 2013.

We request your response in 30 days from issuance of the final report.




Final Report: Review of the Peace Corps’ Implementation of                                      55
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
Appendix E: Program Evaluation Completion and OIG Contact


                 PROGRAM EVALUATION COMPLETION AND
                           OIG CONTACT

PROGRAM                             This program evaluation was conducted under the
EVALUATION                          direction of Jim O’Keefe, Assistant Inspector General for
                                    Evaluations, by Jim O’Keefe and Senior Evaluator April
COMPLETION
                                    Miller. Additional contributions were made by Senior
                                    Evaluators Jerry Black, Susan Gasper, Reuben Marshall,
                                    and Lead Evaluator Heather Robinson.




                                    Jim O’Keefe
                                    Assistant Inspector General for Evaluations



OIG CONTACT                         Following issuance of the final report, a stakeholder
                                    satisfaction survey will be distributed. If you wish to
                                    comment on the quality or usefulness of this report to help
                                    us improve our products, please e-mail Jim O’Keefe,
                                    Assistant Inspector General for Evaluations, at
                                    jokeefe@peacecorps.gov, or call (202) 692-2904.




Final Report: Review of the Peace Corps’ Implementation of                                        56
Guidelines Related to Volunteer Victims of Rape and Sexual Assault
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                         Contact OIG

                                   Hotline:
          U.S./International:       202.692.2915
          Toll-Free (U.S. only):    800.233.5874

          Email:                    OIG@peacecorps.gov
          Web Form:                 www.peacecorps.gov/OIG/ContactUs

          Mail:                     Peace Corps Office of Inspector General
                                    P.O. Box 57129
                                    Washington, D.C. 20037-7129

                      Main Office: 202.692.2900
